<html>
<title> - [H.A.S.C. No. 109-122] UPDATE ON THE USE OF COMBAT HELMETS, VEHICLE ARMOR AND BODY ARMOR BY GROUND FORCES IN OPERATION IRAQI FREEDOM AND OPERATION ENDURING FREEDOM</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]


 
                         [H.A.S.C. No. 109-122] 

 UPDATE ON THE USE OF COMBAT HELMETS, VEHICLE ARMOR AND BODY ARMOR BY 
GROUND FORCES IN OPERATION IRAQI FREEDOM AND OPERATION ENDURING FREEDOM 

                               __________

                                HEARING

                               BEFORE THE

               TACTICAL AIR AND LAND FORCES SUBCOMMITTEE

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD

                             JUNE 15, 2006

                                     
             [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                     U.S. GOVERNMENT PRINTING OFFICE

33-590 PDF                 WASHINGTON DC:  2007
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001





























               TACTICAL AIR AND LAND FORCES SUBCOMMITTEE

                  CURT WELDON, Pennsylvania, Chairman
JIM GIBBONS, Nevada                  NEIL ABERCROMBIE, Hawaii
W. TODD AKIN, Missouri               IKE SKELTON, Missouri
JEB BRADLEY, New Hampshire           JOHN SPRATT, South Carolina
MICHAEL TURNER, Ohio                 SOLOMON P. ORTIZ, Texas
PHIL GINGREY, Georgia                LANE EVANS, Illinois
TERRY EVERETT, Alabama               JIM TURNER, Texas
HOWARD P. ``BUCK'' McKEON,           ADAM SMITH, Washington
    California                       MIKE McINTYRE, North Carolina
WALTER B. JONES, North Carolina      ROBERT A. BRADY, Pennsylvania
JIM RYUN, Kansas                     JOHN B. LARSON, Connecticut
ROB SIMMONS, Connecticut             STEVE ISRAEL, New York
ED SCHROCK, Virginia                 JIM COOPER, Tennessee
J. RANDY FORBES, Virginia            KENDRICK B. MEEK, Florida
JOEL HEFLEY, Colorado                RODNEY ALEXANDER, Louisiana
JOE WILSON, South Carolina
FRANK A. LoBIONDO, New Jersey
               Jesse Tolleson, Professional Staff Member
                Andrew Hunter, Professional Staff Member
                     Benjamin Kohr, Staff Assistant























                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2006

                                                                   Page

Hearing:

Thursday, June 15, 2006, Update on the Use of Combat Helmets, 
  Vehicle Armor and Body Armor by Ground Forces in Operation 
  Iraqi Freedom and Operation Enduring Freedom...................     1

Appendix:

Thursday, June 15, 2006..........................................    47
                              ----------                              

                        THURSDAY, JUNE 15, 2006
 UPDATE ON THE USE OF COMBAT HELMETS, VEHICLE ARMOR AND BODY ARMOR BY 
GROUND FORCES IN OPERATION IRAQI FREEDOM AND OPERATION ENDURING FREEDOM
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Abercrombie, Hon. Neil, a Representative from Hawaii, Ranking 
  Member, Tactical Air and Land Forces Subcommittee..............    12
Ortiz, Hon. Solomon P., a Representative from Texas..............     4
Weldon, Hon. Curt, a Representative from Pennsylvania, Chairman, 
  Tactical Air and Land Forces Subcommittee......................     1

                               WITNESSES

Meaders, Dr. Bob, MD, Captain, Medical Corps, U.S. Navy (Retired)     7
Speakes, Maj. Gen. Stephen M., Director, Force Development 
  Office, Deputy Chief of Staff, G8, U.S. Army, accompanied by 
  Sgt. First Class Lutz; Maj. Gen. William D. Catto, Commanding 
  Gen., Marine Corps Systems Command, U.S. Marine Corps; Roger M. 
  Smith, Deputy Assistant Secretary of the Navy, (Littoral and 
  Mine Warfare); and Brig. Gen. Gary T. McCoy, Director of 
  Logistics Readiness, Deputy Chief of Staff/Logistics, 
  Installations and Mission Support, U.S. Air Force..............    23

                                APPENDIX

Prepared Statements:

    Catto, Maj. Gen. William D...................................    72
    McCoy, Brig. Gen. Gary T.....................................    95
    Meaders, Dr. Bob.............................................    54
    Smith, Roger M...............................................    87
    Speakes, Maj. Gen. Stephen M.................................    65
    Weldon, Hon. Curt............................................    51

Documents Submitted for the Record:
    [There were no Documents submitted.]

Questions and Answers Submitted for the Record:

    Mr. Israel...................................................   115
    Mr. Weldon...................................................   105
 UPDATE ON THE USE OF COMBAT HELMETS, VEHICLE ARMOR AND BODY ARMOR BY 
GROUND FORCES IN OPERATION IRAQI FREEDOM AND OPERATION ENDURING FREEDOM

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                 Tactical Air and Land Forces Subcommittee,
                           Washington, DC, Thursday, June 15, 2006.
    The subcommittee met, pursuant to call, at 3:15 p.m. in 
room 2118, Rayburn House Office Building, Hon. Curt Weldon 
(chairman of the subcommittee) presiding.

 OPENING STATEMENT OF HON. CURT WELDON, A REPRESENTATIVE FROM 
     PENNSYLVANIA, CHAIRMAN, TACTICAL AIR AND LAND FORCES 
                          SUBCOMMITTEE

    Mr. Weldon. The committee will come to order.
    This afternoon the Tactical Air and Land Forces 
Subcommittee meets in open session to continue our ongoing 
review of Operation Iraqi Freedom and Operation Enduring 
Freedom force protection issues.
    We will receive testimony from two distinguished panels of 
witnesses. This marks the third hearing this subcommittee has 
held in the past five months regarding force protection 
initiatives. The testimony we receive today will provide the 
status of combat helmets and body and vehicle armor in Iraq and 
Afghanistan.
    Force protection has already been a top priority of this 
committee and will continue to be a top priority as long as our 
military is deployed in harm's way. Chairman Hunter and Ranking 
Member Skelton have provided outstanding leadership and support 
on this issue, and we thank them for that support.
    We are finally turning the corner with respect to meeting 
the body and vehicle armor requirements for our troops. It has 
been a hard-fought effort, and there are still many areas for 
improvements in terms of reforming the acquisition system and 
maintaining a sense of urgency, but, overall, we have come a 
long way. As long as our personnel are threatened, we must do 
everything we can to provide them with the best protection that 
is available.
    Regarding body armor, all military personal serving in Iraq 
have been issued, at a minimum, the body armor with enhanced 
armor plates to meet the threat. The Army and Marine Corps 
continue to direct their efforts toward supplementing body 
armor with side torso armor. These side torso armor 
requirements must be fulfilled as expeditiously as possible. 
The committee understands that the Army is in the process of 
qualifying additional sources for side torso armor in order to 
meet the requirements sooner. We expect to hear more about this 
strategy today.
    We understand the services face a difficult task in 
balancing the need to protect soldiers and Marines, while at 
the same time not adding so much weight as to inhibit their 
mobility and effectiveness. Just as adding armor to vehicles 
has a downside by creating rollover potential, adding body 
armor can reduce personal mobility and increase the danger to 
the individual.
    Regarding vehicle armor, almost 100 percent of the vehicles 
in theater have factory-produced armor, and no vehicle leaves a 
secure area without armor.
    The industrial base for vehicle armor continues to expand. 
We expect to hear from our service witnesses regarding the 
status of transitioning from existing armored vehicles to those 
with even higher levels of protection.
    Despite recent press reports regarding the danger caused by 
rollover potential, I am confident that the additional vehicle 
armor has saved many lives and continues to help protect 
military personnel from daily Improvised Explosive Device (IED) 
attacks.
    Driver training and rollover mitigation procedures need to 
be a priority. We cannot neglect safety, but I am confident 
that personnel will choose armor over reducing rollover 
potential by reducing vehicle armor. We can expect to learn 
more about what is being done to address these concerns.
    A new issue before this subcommittee, but one we have been 
investigating for several months, has to do with combat 
helmets. We understand that there are primarily three helmets 
in use by the services, with either padded or sling suspension 
systems. We also understand that helmet shells used by 
different services, while at slightly different sizes and 
weights, provide similar ballistic protection. However, while 
available test data is limited, results indicate significant 
differences in protecting against nonballistic impact or blast 
protection, depending on whether the helmets use padded or 
sling suspensions systems, with the padded suspension system 
providing approximately twice the protection against blasts.
    Apparently, we have thousands of our military personnel who 
believe the helmet they are being issued does not provide them 
satisfactory protection. Are they misinformed, or is there 
substance to their concerns?
    The medical officer of the Marine Corps, in a memo of April 
of last year, concurred in the official position of the Marine 
Corps not authorizing the padded suspension system for the 
Marine Corps helmet. He noted that, quote, comfort, fit and 
performance, when exposed to cold temperatures and moisture, 
make the padded system unsuitable for operational use, end 
quote. This is why, after examining this, we have brought the 
helmet issue before a formal session of the subcommittee 
because of unresolved differences on the issue.
    When we asked the Marine Corps why some Marines were 
expressing dissatisfaction with their helmets, the official 
position was that the Marine Corps helmet provided the required 
protection. They also expressed their concerns that there was 
an inappropriate relationship between Operation Helmet and the 
primary provider of the padded system for combat helmets. In 
fact, a senior Marine Corps official accused Operation Helmet 
of, quote, ``abetting war profiteering,'' end quote.
    This same official indicates that the padded system being 
requested by the Marines in Iraq for their helmet, quote, 
``does not work. It reduces ballistic protection of the system 
and does not address the injuries that are occurring most 
frequently in theater. The lightweight helmet, the Marine Corps 
helmet, is superior to any other system available,'' end quote.
    In addition, with all the trips that our Members have made 
to Iraq, we have had no negative feedback regarding helmets 
from military personnel. However, with a reported 8,000 
warfighters, currently 40 to 50 per day, now having expressed a 
need for a different helmet suspension kit than they have been 
issued, it is time to get definitive answers. How can so many 
warfighters be wrong?
    The padded system being requested is used by the Army and 
Special Operations Command (SOCOM). The Marine Corps' own 
testing indicates that their helmet provides about half the 
blast impact protection of the Army helmet. The Marine Corps 
says its helmet meets the Marine Corps requirement, but if it 
only provides half the blast impact protection of the Army 
SOCOM helmet we need to understand why this is acceptable to 
Marine Corps leadership and why it insists on using this sling 
suspension system.
    It is also interesting to note that, while the Marine Corps 
insists on using the sling suspension solution, the Navy 
Seabees, also a part of the Department of the Navy, after 
examining the options available, also selected the Army/SOCOM 
padded suspension kit for their helmet.
    There are also issues regarding Army management of its 
helmet program. We understand that the Army used the same 
pattern suspension system for roughly the first 500,000 
production versions of its new helmet and then changed its 
testing criteria and now uses three different manufactures. We 
want to know whether these different padded suspension systems 
differ in quality. We expect the service witnesses to help us 
understand the rationale for using different helmets and 
different suspension systems and the procedures used to 
properly test these three systems against ballistic and 
nonballistic impacts such as blunt trauma. We also need to know 
what the medical data shows regarding the kinds of head 
injuries being experienced in theater.
    The final issue we want to address relates to recent media 
reports quoting service personnel saying they do not have 
adequate medical supplies, specifically, specialized bandages 
that are used as blood-clotting accelerants. The services claim 
that they have adequate supplies and that no unit has indicated 
an inability to get the required bandages. We have asked our 
witnesses to be prepared to answer questions on this subject 
today.
    My only comment for now on this is that here again, upon 
examination, we find individual service solutions to problems. 
With the Army selecting its solution and the Marine Corps using 
a different blood-clotting accelerant solution, where is the 
jointness and coordination that we hear so much about?
    As the threat to our military personnel continues to 
evolve, force protection requirements must continue to change 
accordingly. We as a committee need to be reassured that all 
force protection programs are being accomplished expeditiously, 
the services are communicating with one another, and that every 
effort is being considered to meet new force protection 
requirements. Every day we must be able to confidently say that 
we are doing everything possible to provide our warfighters the 
best protection they need and deserve.
    We look forward to hearing all of our witnesses today on 
these important issues, and today we have an interesting panel. 
Before I introduce my good friend, Solomon Ortiz, for his 
opening statement, one of those individuals who has helped put 
together a non-profit foundation, Dr. Meaders, will be our 
lead-off witness. His story is an amazing story that I will get 
into before he has the opportunity to speak to us.
    Joining Dr. Meaders, in the audience today with him--and we 
appreciate her taking the time to be here but also for her 
financial commitment to the needs of our soldiers with personal 
donations well in excess of $100,000, sitting behind Dr. 
Meaders is Cher. Cher, thank you for being here.
    With that, I would now turn to my distinguished friend and 
colleague, Mr. Ortiz, for his opening statement.
    [The prepared statement of Mr. Weldon can be found in the 
Appendix on page 51.]

STATEMENT OF HON. SOLOMON P. ORTIZ, A REPRESENTATIVE FROM TEXAS

    Mr. Ortiz. Thank you, Mr. Chairman, for yielding; and I 
just wanted to mention a few concerns that our ranking member, 
Neil Abercrombie, had coming into this hearing, which I share 
along with my good friend. Mr. Abercrombie was unavoidably 
called away.
    I am very concerned that the Army and the Marine Corps 
disagree about what kind of helmets soldiers and Marines 
engaged in ground combat operation should wear. Even more 
concerning is that the two services appear to disagree on how 
to test helmets and what the standards of protection should be. 
Why in the world is there no agreement on this, such a 
seemingly simply issue, three years into the war in Iraq?
    It is a shock to no one on this committee that the 
different services tend to go their separate ways on buying 
helicopters, airplanes or other expensive equipment. In some 
cases, there are good reasons for the services to have 
different equipment. But in the case of a helmet for ground 
combat, any argument that different gear is required for the 
Army and Marines strains the bounds of credibility. It is 
wasteful, and it means that one or the other, either the Army 
or the Marines, are receiving inferior force protection 
equipment. This practice of this service all doing their own 
thing must end. It is wasteful at best and in this case may be 
endangering our troops.
    How did we get into this kind of bind? I have my 
suspicions. One possible reason for this situation is that the 
root of all evil is money. All of the military services budgets 
are under strain due to the war in Iraq, and the way we are 
budgeting for them through supplemental appropriations, no 
matter how much some in the Pentagon may deny it, this practice 
of not fully funding the cost of the war in the regular budget 
produces lots of bad side effects.
    Have testing standards been reduced to save money? Are 
either the Marine Corps or the Army reluctant to buy a 
different helmet because of money? We need to know whether this 
is the case.
    I am also concerned that if the soldiers and Marines in 
combat cannot get the best equipment available, then what hope 
is there for the National Guard troops here at home? The 
National Guard already has just 30 percent of its required 
equipment, and I imagine helmets aren't its top priority if it 
is short of trucks and radios.
    I am confident this problem will be fixed. When it comes to 
providing protective gears to our troops, this committee has 
consistently asked just one question, how much money do you 
need? This committee would provide whatever it takes to protect 
our troops, but you, the services, must tell us honestly what 
they need.
    Thank you, Mr. Chairman.
    Mr. Weldon. I thank my friend and colleague.
    As I mentioned, we have two panels here today. The first 
witness we have is the founder of the charitable organization 
Operation-Helmet.org, Dr. Bob Meaders, who is also a retired 
Navy captain. His son is a constituent of mine who first 
brought this to my attention approximately a month and a half, 
two months ago. How and why he did this is an interesting story 
that I will let him tell. It is an amazing story, a family-
formed foundation, taking none of the proceeds for any of the 
administrative costs, using all the money because of a story 
brought to him by his grandson, who, by the way, is still 
serving in theater on this very day.
    His organization consists of him and his son Mark, who is 
also retired Air Force, and his wife, who is either active duty 
or retired Air Force Reserve, uses donations to purchase and 
send padded helmet suspension systems to warfighters that make 
requests of them.
    It makes no sense to me that our military personnel have to 
rely on a charitable organization to get the equipment they 
seem to think they need because their service is not providing 
it for them. We take our oversight responsibility very 
seriously. We need to get the facts. If we are not providing 
the right gear to our military personnel, we need to fix the 
problem. If our troops are asking in great numbers, as appears 
to be the case--and I understand there have been 8,000 inserts 
sent over from this foundation which are being used by our 
troops--then why don't we issue this to them?
    Dr. Meaders is accompanied here today by his wife, LaVera, 
his son, Mark Meaders, and his son's wife, Carla Jean; and I 
want to thank them all. They are dedicated and patriotic 
Americans.
    I talked to Dr. Meaders at length; and he said, 
Congressman, I want to get out of this business. I want to go 
play golf again. But we appreciate your leadership.
    We also want to thank Cher for coming. How did Cher get 
here? She went on C-SPAN and called in as a citizen when Dr. 
Meaders was on and said, I want to contribute; I am a part of 
this. And my understanding is that she has personally 
contributed over $300,000 to Operation Helmet, which has 
provided thousands of inserts for our troops in theater.
    Now let me say one additional thing about this hearing. It 
is especially poignant today because Sonny Bono and his wife 
Mary had been members of this committee. I met Sonny when he 
first came. He was a member of our full committee and my 
subcommittee. We were good friends. In fact, the weekend before 
he was killed in a tragic accident he was coming to my 
congressional district for an event for me.
    As you all know, Sonny died from a traumatic head injury. 
Sonny's concern on this committee, as was Mary's when she 
served on this committee--and Mary is here with us today, an 
outstanding member of this body--was focused on the protection 
of our troops. They spent their hours here working tirelessly 
to make sure back then that we had proper protection.
    I, with my colleagues here, attended the tragic--the 
funeral of Sonny Bono and the tragedy that we had heard when we 
got the news that Sonny had died. Cher gave the eulogy there. 
Obviously, I had never met Cher, but I sat in that church and I 
listened to that eulogy and can tell you to this day it is the 
perhaps the most emotional speech I have ever heard. It wasn't 
a written speech. In fact, she said that when she got up there. 
I can't use my notes. It was from her heart. She talked about 
the Sonny Bono that she knew.
    So it really is a special irony and a really great tribute 
that Cher would return to this hearing room with Mary Bono 
sitting here at the dais who served on this committee and with 
the memory of Sonny Bono in all of our hearts and the great 
work that he did on behalf for the support of our troops.
    And Mary is joined by Steve Buyer. Steve is the chairman of 
our Veterans Affairs Committee. Steve has served on this 
committee, Steve has served in theater, and still is a 
reservist. Steve understands the needs of our military and the 
results of our military when they become veterans better than 
any other Member of this institution. So it is an extreme honor 
to have the chairman of the Veterans Affairs Committee and 
former member of this committee come today to show you, Dr. 
Meaders, how seriously he takes this issue. Steve has been 
doing significant work on the helmet issue, and he will have 
some questions for you.
    We are asking special approval today to have the chairman 
of the Veterans Affairs Subcommittee sit as a full member of 
this committee, with Mary Bono and other members, so that they 
can join in the questioning.
    So this is what we told you we would do a month ago. We do 
work quickly, government does respond, and we want you to know 
our support for the warfighters is unwavering. There are no 
political consequences here. We are going to do the right 
thing, and we will put whatever amount of money is necessary. 
That is the role that Democrats and Republicans on this 
committee and this Congress have consistently taken.
    Our second panel today includes witnesses representing the 
military services, and we have distinguished leaders of our 
military.
    From the Army, Major General Stephen Speakes, Director for 
Force Development, Army G8.
    Marine Corps General William Catto, Marine Corps Systems 
Command. General Catto, welcome back.
    Representing the Navy, Roger Smith, Deputy Assistant 
Secretary of the Navy, Littoral and Mine Warfare. Roger, 
welcome back in your new capacity. I'm not promising to go easy 
on you, but we know that you can handle it.
    Representing the Air Force, Major General select Gary 
McCoy, Director of Logistics Readiness, Office of the Deputy 
Chief of Staff for Logistics.
    We thank all of you for joining us. We look forward to your 
testimony.
    We would like to proceed with the first panel's testimony, 
but, without objection, I would say that all of your written 
statements will be included in the record, including yours, Dr. 
Meaders. We ask that you summarize whatever comments you want 
to make, and then we will allow members to ask questions, and 
we will operate under the 5-minute rule.
    With that, we will turn the floor over to you, Dr. Meaders, 
for whatever statement you would like to make. And again, 
welcome. Thank you for being here, but, more importantly, thank 
you for your service to the country and thank you for, in your 
retired years, coming back and responding to your grandson's 
request for help. I would ask you to go into that story for us 
here today so that all of us can share in the outstanding 
American story that you represent. Thank you.

STATEMENT OF DR. BOB MEADERS, MD, CAPTAIN, MEDICAL CORPS, U.S. 
                         NAVY (RETIRED)

    Dr. Meaders. Thank you, Mr. Chairman and honored Members of 
Congress and all the military who are here. You are needed, 
wanted and loved by the American people; and we offer you all 
the support that we can.
    This whole thing started out as a single-event mission. My 
grandson, who is now a Marine Sergeant, at the time was a young 
Lance Corporal in training at Twentynine Palms, California, for 
convoy duty. A gunnery sergeant just back from Iraq gathered 
the troops around and said, look at my helmet, it has got an 
upgrade to it, and if you are smart you will get one for 
yourself, it might save your life like mine.
    My grandson called me up and said please check this out and 
see if this is for real or not. So I went to my various old 
friends in the Navy and in the Army Air and Medical Research 
Lab and several civilian groups doing blast research and they 
said, yes, this is good. As a matter of fact, when we were 
deployed over there we had these in our helmets.
    At the time, we were talking about the Personal Armor 
System, Ground Troops (PASGT) helmet, which was this particular 
helmet, the problem of which is the nylon strap that separates 
your head from the helmet, there is nothing between the helmet 
and your head except air and that piece of nylon. This helmet 
is great at deflecting bullets, but with this between your head 
and the helmet, when a blast force strikes this helmet, or 
large fragments from the blast force, or you are getting 
tumbled down the road or inside your vehicle, this helmet 
slides over, contacts the skull in an area of about the size of 
a ball peen hammer and will cause skull fractures, intercranial 
hemorrhages of various sizes, brain bruising, and can lead to 
long-term disability or death.
    So without further ado, we purchased some of the kits that 
turned that helmet into what looks like a very good National 
Football League (NFL) helmet.
    These helmet kits that we purchased are filled with shock-
absorbing pads that are Velcroed to the surface. And these pads 
are very sophisticated; these are not just your ordinary 
kitchen sponge. They are a combination of slow and rapid crush 
foam. The rapid crush foam allows the helmet to deflect 
momentarily when struck by a missile; the slow crush foam 
absorbs the energy and spreads it out over a larger area of the 
head. So instead of getting hit by a hammer you are getting 
shoved by the palm of your hand. It makes a tremendous 
difference in the survivability of a blast evolution.
    So we sent my grandson a few kits, enough for his rifle 
team, and they put them on and wore them for a couple of days' 
training. He called back and said these are wonderful, but we 
feel like we can't wear these unless we can get them for our 
whole company. And we swallowed hard and we said, how many of 
those do we have to come up with? And he said a hundred. So we 
went around and knocked on doors and gathered up the money and 
sent them a hundred by the time they got in country. And that 
was our only mission at that time.
    Then in country the other troops saw them being able to run 
across the sand without having to hold their helmet in one hand 
and their weapon in the other. When they were in prone firing 
position, they didn't have to stop and slap the helmet back 
when the another guy behind the berm was standing there in a 
stationary position. When they wore night vision goggles, they 
didn't have to hold them up to keep their eyes uncovered. And, 
strangely enough, they found them sleeping with using these 
helmets as a pillow, using the internal padding.
    So we began getting requests from other units nearby. And 
as word spread from mouth to mouth, obviously, it was going to 
be a much larger job. So a very generous lawyer there in Texas 
said, let's just set you up as a corporation, and then we will 
do a 501(c)(3) and people's donations can be tax deductible, 
and off we want.
    So from an initial standpoint of a hundred, as of today we 
are--like I said, about 8,700 have gone over to the troops, 
which is a drop in the bucket compared to what is needed. But I 
hope it makes some difference. And if we just all get together 
and save one life, then we have done a good thing.
    The Army--some time back I got a call from the Army Chief 
of Staff's Office; and they said, Dr. Bob, we are purchasing 
helmets that have these pads from the factory installed. You 
don't have to do that anymore. So that left me with just the 
Marines who were wearing this old-style helmet, with the Navy 
Seabees who were beginning to evolve into a new duty of running 
convoys, and Air Force guys.
    The Army was spread too thin, so they said you drive your 
own trucks and get your gear from point A to point B, and that 
exposed them to the IEDs, suicide attacks by vehicles. 
Sometimes when the over-armored vehicles start rolling over, 
you are rattled around like a BB in a tin can, and your head 
slams up against the side of the vehicle. Once again, helmets 
go in contact and sometimes fatal results--and even nonfatal 
results. If you get hit often enough like that, with a sharp 
blow rather than a push, you develop chronic traumatic brain 
injury with neurocognitive problems later in life where you 
can't remember--well, I can't now sometimes--your wedding date 
or your home address or what you are doing when or the 
relationship between things--it is called executive functions--
start going by the board.
    So we were very fortunate to have the general public, the 
Marine families especially, pitch in and begin helping. And 
word spread generally throughout the country by means of 
television, radio, newspaper articles, and great citizens like 
Cher who stepped forward and said, how can I help? It is not 
about me. It is about what can we do for the troops and what 
effect can we have.
    The only thing that really changed was that when the new 
Marine helmet came out that is similar in size and shape to 
this one, except it has much more bullet resistance, it has 30 
percent more bullet resistance, so it is a darn good helmet. 
But the suspension system in this one, which likewise is 
suspended in such a fashion that in a blast evolution the head 
can rock back and forth and allow the helmet to contact it and 
your head becomes a clanger in a Kevlar bell and it will do 
significant injury to you.
    So we thought we would be able to step down from that when 
the new helmet came out, but we looked at that and said maybe 
we better do some studies. So we did some studies in private 
labs and found that the blast resistance was not much better 
than the old helmet, while the bullet resistance was excellent. 
So we set off to begin trying to convert a really good helmet 
into a great helmet by just inserting the pads. And since then 
the program continues the pace, and folks keep donating money, 
and we keep sending the kits. And that is where we are today, 
Mr. Chairman.
    Mr. Weldon. Thank you, Dr. Meaders.
    [The prepared statement of Dr. Meaders can be found in the 
Appendix on page 54.]
    Mr. Weldon. I am going to allow us to operate under the 
five-minute rule, including the chairman and ranking member, to 
give everyone a chance to ask questions. So I would ask that 
the five-minute light be put on.
    And just for the purpose of your first appearance before 
Congress, the empty seats don't indicate a lack of interest. 
This is a subcommittee of the full committee. So on the 
subcommittee you don't have all the members, and so other 
members are at other hearings. There is a markup across the 
hall. Plus we are debating on the House floor, and a lot of the 
members are there. So I don't want you to think that somehow 
the empty chairs are an indication of a lack of interest. That 
is not the case. In fact, we have a great representation of 
members from both parties today, which indicates a strong 
interest in this issue.
    Dr. Meaders, you were a Vietnam veteran, correct?
    Dr. Meaders. Yes, sir.
    Mr. Weldon. And you also were a medical professional in the 
military, correct?
    Dr. Meaders. Yes. I was a Navy doctor.
    Mr. Weldon. And did you not focus on head injuries and 
injuries with the eyes and all? Wasn't that your specialty?
    Dr. Meaders. Well, as an ophthalmologist and a flight 
surgeon, I saw a lot and would help with facial reconstructions 
in people who had significant facial and head injuries.
    Mr. Weldon. So your expertise in the military was, in fact, 
in the medical area where you dealt with these kind of head 
injuries. It wasn't something that you did not know anything 
about. You knew something about this.
    Dr. Meaders. Yes. I don't want to put myself across as a 
brain injury specialist, because I am not, but on a practical 
level we saw them and treated them, and we saw the devastating 
effects of them. And seeing one is enough to last you a 
lifetime; and if there is a way that subsequently we can do 
something to prevent it in the first place, then good.
    Mr. Weldon. As I mentioned in the opening statement--and I 
want to repeat this for my colleagues and for the public--all 
the money you raised for this foundation you put out the back 
door to buy the inserts, is that correct?
    Dr. Meaders. Yes, sir. We don't take a dime or salary or 
expenses that way. When we travel up here, it is on our own 
dime. And my son Mark does the same thing. He goes around and 
talks to people.
    You know, money doesn't do any good in a bank or in your 
wallet or stuffed somewhere where it doesn't protect you, but 
the helmet kits save lives.
    Mr. Weldon. And you don't have any vested ties to any 
vendor, do you?
    Dr. Meaders. Well, Oregon Arrow sent me a T-shirt and a 
ballpoint pen and a cup for my birthday, but, aside from that, 
no.
    Mr. Weldon. And it was pretty outrageous to me to hear that 
someone would lay out the premise that somehow the purpose of 
you doing this was somehow being tied to a vendor. You are 
probably as disgusted as I am that someone would even suggest 
that.
    Dr. Meaders. Yes. We have purchased from several vendors, 
and we whittled it down to the one basically that I would want 
on my head if I were a front-line combat troop and I would want 
on my grandson's head.
    Mr. Weldon. And, correct me, weren't these vendors also 
approved by the military?
    Dr. Meaders. Yes. Oregon Arrow was authorized by the 
Marines for this particular helmet, for the PASGT helmet, 
authorized but not funded I think was the way it was put.
    As far as the new Marine lightweight helmet, there has been 
disagreement about its use, so that is why we undertook some of 
the studies to make sure that if we replaced this with the pads 
that, number one, it would do no harm and, number two, that it 
would do some good. And that good we hope is decreasing 
injuries from blast evolutions in which the blast is survivable 
and there is no fragment or bullet penetration of the brain and 
we can diminish the concussive injuries to the head.
    Mr. Weldon. How much have you raised in total from 
donations from the public?
    Dr. Meaders. I would say somewhere around $800,000 or so. I 
don't keep a lot of dollar numbers in there, although we have 
got a CPA that does that. We figure there are a number of 
troops that got their head in a better bucket.
    Mr. Weldon. And we know that you are not here to do this, 
but you might want to acknowledge your largest donor to that 
fund.
    Dr. Meaders. Yes, exactly. Cher has been a major 
contributor and just a wonderful supporter. Like I said, she 
came to me and said, this is not about me; I would love to come 
up there and hold your hand while you are in front of the 
committee. And I said, that is great; I would love it. She has 
been a great press relations (PR) person and is now our 
celebrity spokesperson to get the attention of people. Because 
so many say, if I had known about this, I would have been a 
donor a long time ago.
    Mr. Weldon. Is it true that you and she are going to do a 
gig together?
    Dr. Meaders. I refuse to answer on the grounds that it 
might get my head knocked around.
    Mr. Weldon. One final question. Can you summarize some of 
the e-mails you have received from military personnel 
requesting the kits and the feedback from those that use the 
kits? If you could just summarize that for us.
    Dr. Meaders. Yes, sir. We have had just e-mail after e-mail 
from the troops that know they want it and have heard about 
them, anecdotal things about how they perceive the benefits 
from them.
    Just recently we got, as a matter of fact, a telephone call 
the day before yesterday from a young Corporal who is in the 
Camp Lejeune Naval Hospital recovering from shrapnel wounds to 
his neck and shoulders. He called me up and said, Doc, can I 
have a new helmet insert? And I said, well, sure, what happened 
to your old one? And he said, when the rocket hit the wall 
behind me and exploded, it shredded my helmet completely and 
filled my shoulders and neck with shrapnel. They are taking 
care of that. But the good news is it didn't hurt my head at 
all, it just destroyed my helmet, and the pads probably saved 
my life.
    We hear that type of story over and over, people ejected 
from the upgun on the High Mobility Multipurpose Wheeled 
Vehicle (HMMWV), being blown out of a truck, tumbling down the 
road, slapping heads and heels, and being able to get up and 
get back and help the rest of the guys out of a burning vehicle 
and/or mount a perimeter defense for whatever is going to 
follow.
    So, anecdotally, we say, yeah, it works. And it is a hard 
thing to prove, I guess. If you stood up 10 guys in a row and 
hit each one a little bit harder until one of them died, then 
you could say this is the level of protection that we need, 
but--so we have to go on information from the Brain Injury 
Association, who is here with us today, from the National 
Football League that mount G force meters in their helmets and 
show how much people get whacked in the head and soccer players 
that mount them in their headbands.
    So there is pretty good information about what levels of 
impact forces will result in headache, loss of consciousness, 
contusion and, ultimately, fatal injuries.
    Mr. Weldon. Doctor, you and your family are the outstanding 
example of what Americans are all about; and we appreciate your 
commitment to the country and the work that you have done 
through the foundation.
    With that, I will turn to my good friend and colleague for 
his time. He is the ranking member on this committee and a good 
friend of mine from the State of Hawaii, Mr. Abercrombie.

   STATEMENT OF HON. NEIL ABERCROMBIE, A REPRESENTATIVE FROM 
     HAWAII, RANKING MEMBER, TACTICAL AIR AND LAND FORCES 
                          SUBCOMMITTEE

    Mr. Abercrombie. Thank you. Thank you very much, Mr. 
Chairman.
    I want to thank Representative Ortiz for picking up for me 
here because I was not able to be here in time. Doctor, that 
was not a slight to you, I assure you. It was a logistical 
problem I had getting here.
    Some of this you have, I think, answered, but I want to get 
a little bit more specificity. Because I can assure you the 
chairman will put specific numbers and policies into effect, 
should he move forward in this area, and we need to make sure 
that we have our facts correct.
    I have read through all the testimony, but I am still not 
quite sure from the end of it and I would like your opinion--or 
your judgment--why are the Army and Marines using different 
helmet systems? I am still not clear after all of the reading 
in here.
    Dr. Meaders. Well, it is kind of beyond my pay grade to 
make those decisions for the Marines.
    Mr. Abercrombie. Has someone discussed it with you? Could 
you give an observation then? If you can't, that is all right.
    Dr. Meaders. The people that discuss it with me are the 
troops out in the field. They say, we have a great helmet for 
bullet protection, and that is what we thought we were going to 
be facing, and the evolution of IEDs, suicide vehicles and 
vehicle rollovers that slam us around inside are something for 
which we weren't prepared. And we would like to take care of 
that, so that is what we do.
    Mr. Abercrombie. So you haven't gone into the question of 
why there may be a difference in----
    Dr. Meaders. No, sir.
    Mr. Abercrombie. Okay. You mentioned that you hear this 
quite a bit. Do you actually have figures on how many requests 
you have had for the padded helmet liners? Are you able to keep 
statistics, or is your organization not quite up to----
    Dr. Meaders. This is three weeks worth of requests right 
here from the troops out in the field.
    Mr. Abercrombie. So you are keeping records, in effect, of 
the requests.
    Dr. Meaders. I am sorry?
    Mr. Abercrombie. So you are keeping records, in effect, of 
the requests?
    Dr. Meaders. Yes. We keep every single e-mail that comes 
in. Every dollar that comes in, we get the name, address of the 
person. And some of them, donations will come in and say this 
is in memory of Colonel X, Y or Z.
    Mr. Abercrombie. So if a staff works with you, it will be 
more than just anecdotal or verbal recollection. You have some 
paper trail, so to speak.
    Dr. Meaders. Yes, we do.
    Mr. Abercrombie. Thank you.
    Do you have--well, I would really be asking the same 
question over again of why we are using different systems, and 
we will maybe get to that in the second panel.
    I just wanted to indicate, with the Chairman's reference to 
what you term celebrity spokeswomen--spokeswoman in this 
particular instance--I was amused to hear a conversation this 
week that had Mr. Redford, Robert Redford, on it. He was asked 
the same question about what makes it that someone who is--why 
should we pay attention because someone has a celebrity status 
of some kind? Why should we pay attention then? He said, I 
thought that was handled, at least for the Republican side of 
the aisle, when Ronald Reagan became President.
    With that, Mr. Chairman, I will turn it back to you.
    Mr. Weldon. Thank you, Mr. Abercrombie, for your great work 
and your leadership on this committee.
    I will turn to the gentleman from Nevada, Mr. Gibbons.
    Mr. Gibbons. Thank you, Mr. Chairman.
    And, Dr. Meaders, thank you very much for your presence 
here today and for your testimony and for the great work you 
are doing for the young men and women.
    I am stunned, stunned that our military doesn't have the 
foresight to see the need for an insert like this and has not 
seen the need for an insert like this over the years. We have 
looked at or have watched the evolution of the National 
Football League and their helmet systems over the years. They 
have been out front, leading the way. You would think that some 
of the knowledge base, the institutional knowledge base of 
helmet design and protection of the head would have been 
transferred from those professional institutions to our 
military.
    My question would be, are any of the efforts, the work that 
you produce, protected either by patents or some type of 
proprietary restrictions?
    Dr. Meaders. No, sir. Everything we do is aboveboard----
    Mr. Gibbons. So there is absolutely no excuse for any 
company, any organization to say we couldn't do this because it 
was patented.
    Dr. Meaders. Yes.
    Mr. Gibbons. You know, cost versus performance has always 
been the bottom line of what I have seen in the military. But 
in this case the cost is the ultimate brain injury, which is 
far more expensive than the cost of an insert--if it is more 
expensive--than the sling pad construction helmet. So do you 
have a difference in the cost between what is sling pad or a 
pad sling--whatever that system is for suspension--sling 
suspension versus pad suspension would be for a helmet?
    Dr. Meaders. Well, the pad system that upgrades the new 
Marine helmet is 71 bucks, and that replaces what is in there. 
So I don't know what that costs if you were to say to the 
factory don't put that in but put this in.
    For the helmet that the Air Force convoy and the Marine 
Seabees and some of the coastal patrol boats are using, which 
is the old helmet, it needs more work to be upgraded to a very 
safe helmet, so that is about 99 bucks.
    But, once again, I don't know what it would be if you got 
it directly from the factory without that originally so you 
don't have to replace anything.
    Mr. Gibbons. So in order to incorporate your pad protection 
or your pad suspension it would require, for an original helmet 
without the new upgraded sling suspension, about a hundred 
dollars.
    Dr. Meaders. Yes, sir. Now, understand, we don't 
manufacture anything. All we do is purchase them and send them.
    Mr. Gibbons. Okay.
    Mr. Weldon. Would the gentleman yield on one point?
    Mr. Gibbons. I would be happy to yield.
    Mr. Weldon. You might want to, as a follow-up to Mr. 
Gibbon's comment on the setasides, I think you had indicated to 
staff that that has been a problem in the past, where there are 
requirements for setasides in producing these pads for certain 
groups.
    Dr. Meaders. I am sorry, would you----
    Mr. Weldon. The setasides. I think staff has told us that 
you discussed with us the problems that have occurred when 
there are forced purchases through certain groups that might 
lead to an inferior capability.
    Dr. Meaders. Well, as I understand it, there is what is 
called a Javits, Wagner, O'Day Program (JWOD), where you have 
to purchase certain materials manufactured by the National 
Institutes for the Blind and Severely Visually Handicapped, and 
sometimes that is hard to do with a complicated manufacturing 
process. I am sure that they could always be included in the 
process. Somewhere along the line they will help them get the 
funding they need for the wonderful work that they do.
    Mr. Gibbons. Have any of the other services or even the 
leadership of the Department of Defense (DOD) come to you and 
talked to you about this system, about incorporating the 
results of your effort and your information into their new 
purchases of helmets?
    Dr. Meaders. No, sir. I can't say that I have been 
approached like that. I would love for them to take it over so 
I could quit and go play golf.
    Mr. Gibbons. Well, that is what is surprising, obviously, 
it is working. The word of mouth that is out there in our 
military among the troops is very effective in terms of 
awareness today of the improvement in their helmet by what you 
have done or what you have provided them. And it stuns me again 
that the industry that is responsible, the Department of 
Defense, which is responsible for that industry, and the 
soldiers haven't taken the opportunity to improve the helmets 
they have out there.
    To me, I think there is a clear choice here. We either 
protect the lives of our soldiers, or we don't send them. And 
if we have the ability to protect them, we ought to do 
everything that is possible to do that.
    Again, I want to thank you for what you have done. You have 
certainly enlightened our committee, and we are very proud that 
you took the time and the effort out of your years of hard work 
and dedication to this country to do one more thing for our 
troops. Thank you.
    Thank you, Mr. Chairman.
    Mr. Weldon. I thank the gentleman.
    The distinguished gentleman from New York is recognized, 
Mr. Israel.
    Mr. Israel. Thank you, Mr. Chairman.
    Doctor, thank you so much for your service and your 
sacrifice; and let me also thank Cher for the critical work 
that she is doing and for lending her celebrity status to this 
effort.
    You know, there is a saying that politics is show business 
for ugly people; and this panel is probably graphic testimony 
of that. But Cher's presence here is extremely important--who 
said speak for yourself? Cher's presence is very important 
because it does help draw attention to this critical issue. I 
would imagine, as has been stated before, that if we were 
having a hearing on this issue without the presence of a 
celebrity we would not have the number of photographers that 
join us today.
    There is lots of talk about sacrifice in the Global War on 
Terror, Doctor, as you know. People say that America is 
fighting a war on Iraq. America is not fighting a war in Iraq. 
130,000 Americans are fighting the war on Iraq. The rest of us 
are watching it on television.
    We are going to pass a resolution at some point this 
evening that honors our troops. But, somehow, when it comes 
time to actually sign the check and make sure they get what 
they need, we fall short or it is too late. So this is 
essentially a matter of priorities. If we can find $2 billion 
in tax cuts for the richest oil company executives on earth, we 
should be able to find the money so that everybody in theater 
gets that equipment so that you don't have to spend your time 
and your dime raising money for that.
    Mr. Chairman, I have some specific questions about another 
force protection issue, and that is coagulants, for the second 
panel.So I will yield back my time and save my time for the 
second panel.
    Thank you. And thank you again, doctor.
    Mr. Weldon. I would thank the gentleman.
    I would just note for the record that this committee with 
Democrat and Republican support has consistently put more money 
in than even Democrat or Republican Administrations have 
requested consistently to make sure that our troops are 
protected. I don't think we have ever had a question where 
individual personal protection was not funded by this 
committee, and I take great pride in both Democrat and 
Republicans leading that effort.
    With that, we will go to our distinguished gentleman from 
Texas, Mr. Conaway.
    Mr. Conaway. Thank you, Mr. Chairman; and, Dr. Meaders, 
thank you for being here today and for your work.
    I am going to yield to my good colleague and friend, Steve 
Buyer, from the Veterans Affairs Committee.
    Mr. Buyer. Thank you to my colleagues for allowing me to be 
here today.
    Mr. Weldon. Excuse me one minute, Steve. I have to get--
after consultation with the minority, I now ask unanimous 
consent that Mr. Buyer, Chairman of the Veterans Affairs 
Committee, be allowed to speak in today's subcommittee hearing 
and be authorized to question the witnesses.
    Mr. Buyer would be recognized at this point at the 
conclusion, but obviously he has been yielded to, so that is 
fine. Hearing no objections, so ordered.
    Mr. Buyer. Thank you very much.
    Those of us who serve on the Veterans Affairs Committee--
and Mr. Simmons was on the committee for a while--we are 
dealing with the consequences of war. So when we started 
dealing with many of the blast injuries, we then--Congress 
created four polytrauma centers. There is one in Minneapolis, 
Richmond, Tampa and Palo Alto; and now we have gone into second 
tiers. So we are taking care of the men and women who are 
suffering from these injuries, and the helmet has come to be an 
issue. And what I don't know, sir, is whether the apparatus 
which you are describing is going to be the solution.
    Some of the results that we are dealing with are, 
obviously, some of the blindness. We are dealing with hearing 
loss and traumatic brain injuries. But we also have caused 
this--it wasn't just the helmet in and of itself. Because when 
we have done everything we can to purchase body armor--before 
when there was a blast, part of the torso would absorb a 
percentage of the blast. Now when we put on the body armor, 
what is exposed are the extremities. When the blast hits the 
chest, a percentage of it goes up into the face. So we then 
deal with the maxiofacial, the nasal, the eyes, the ears. So 
when we have a concussion, we also have the reconcussion.
    So this helmet, while the force goes up into the helmet 
that is strapped on, there is no release of the energy. So the 
energy goes up, it settles back. And where does it settle back 
is the pressure upon the brain.
    Now I am not a neurosurgeon, and I know you aren't either. 
So what we are desiring--first of all, let me compliment you in 
trying to seek a solution, because that is what we are going to 
do; and, Mr. Chairman, let me thank you for this hearing in a 
bipartisan basis for you to proceed on this issue. We are going 
to do the same thing on the Veterans Affairs Committee, and it 
is whether or not we are going to dedicate research dollars to 
do just that.
    What I don't want to do is I don't want to have redundancy. 
And you have got research dollars, we have got research 
dollars, and somehow we need to come together on how we provide 
the research to make sure that the helmet is right. Because the 
key is, how do we manufacture a helmet that does not compromise 
the integrity of its purpose, yet has some form of ventilation 
system that allows the energy to disperse? And therein lies our 
challenge. And I am sure that you have had to examine part of 
what I have discussed, correct?
    Dr. Meaders. Yes, sir.
    If you would like a response, I have spoken to some 
demining companies in France and Israel and some in the 
Netherlands that do these commercially, and they quit wearing 
helmets. Instead, they wear a blast-deflecting shield.
    But I posed the question to them: If you compare the scoop 
effect of a hollow helmet with nothing but air between your 
head and the shell versus the scoop effect of a helmet in which 
probably 80 percent of the air is now occupied by these pads, 
if you will, what effect does that have on the, as you say, the 
impact and the reimpact? And they said, you know, we have never 
thought about that. We always just used the old-style helmet, 
but we are going to look into it.
    So at this point in time, no one really has the answer yet.
    Mr. Buyer. I don't want to be as hard on DOD as some may, 
because we here in Congress have also caused part of that 
problem. It is the demand of the American people to do 
everything we can to do force protection. So we here in 
Congress do what we can, yet we are also causing new types of 
injuries in furtherance thereof. So as we do this, this cause 
and effect, we have to follow it.
    Now DOD also needs to be highly responsive to that. And Mr. 
Simmons and I were just talking about how easy it is for other 
countries. We have got this sophisticated acquisitions system. 
You can go out and you can make immediate change and give it to 
the force faster than what DOD can through acquisition. They 
can't buy them until it is researched to death. So therein lies 
our challenge.
    I want to work with the Armed Services Committee on this. I 
appreciate the indulgence of my colleagues; and thank you, sir, 
for your leadership.
    Dr. Meaders. Thank you, sir.
    Mr. Weldon. The gentleman from Texas still has time.
    Mr. Conaway. I yield back the time. I just want to once 
again thank Dr. Meaders for your hard work in this effort for 
our troops, and Steve's comments. I yield back.
    Mr. Weldon. I thank the Chairman for being here.
    The gentleman from Pennsylvania, Mr. Brady, is recognized.
    Mr. Brady. Thank you, Mr. Chairman. I would like to thank 
the doctor and his family for bringing this issue to light, to 
this committee. It is almost embarrassing that we didn't think 
of it ourselves, but we tend--from time to time we need to be 
prodded along and bring issues to us.
    You know, war changes. When we first went into this war on 
the ground, we thought that we would be getting shot at. And 
the helmet, as you said, is a great protective piece of 
equipment, but now we are getting blown around and our brains 
and our head are getting banged around, and what you have now 
hopefully puts our men and women a lot safer.
    I would like to thank Cher, also, because of the celebrity 
status, as my colleagues said, that we do need, and it brings a 
whole lot more light to an issue that needs to have that 
happen. I thank her for her concern for the men and women that 
are in harm's way.
    As we said, we are sitting here in air conditioning and 
pretty safe. We walk through metal detectors and dogs go around 
our cars and we are pretty safe. But our men and women aren't, 
and we need to do our job to make sure that they are safe. So I 
thank you for that. I think you are a great patriot.
    We have got a great bipartisan committee. I am really glad 
to know we have two bipartisan committees, with our chairman of 
Veterans Committee telling us that he has some research dollars 
to put in. We have a great chairman that isalways out there 
fighting for our men and women, and we have some money to put 
in. Hopefully, by doing that and having this hearing, we can 
get you back on the golf course, Doctor. You deserve it. So 
thank you very much for being here.
    Dr. Meaders. Thank you, sir. The response across America 
has been--regardless of how we feel about the war, we love, 
respect and want to support our troops; and that is the 
wonderful thing that has brought this all together.
    Mr. Weldon. First of all, I want to thank the gentleman for 
his questions. I just note for the record he is a labor leader 
from Philadelphia, so if anyone knows about the need to protect 
the head from construction injuries, our good friend from 
Pennsylvania is that person. He is an outstanding member of 
this committee as well, and I thank him for his line of 
questions.
    With that, I will turn to the distinguished gentleman from 
Carolina and the number one leader, Walter Jones, on all the 
veterans' issues for us. Walter, you are recognized for five 
minutes.
    Mr. Jones. Mr. Chairman, thank you very much.
    I guess when I see Cher--I was elected in 1995 with that 
class of Republicans. About 70 of us came here storming. And 
the first time we had an Armed Services meeting here, we were 
here late at night, and I tell you, your husband--former 
husband, I guess, at that time--he kept us up all night, kept 
us awake. He was just a great guy, and we will always remember 
him as long as we have life, that I can promise you.
    Dr. Meaders, I want to say thank you. I have Camp Lejeune 
Marine base in the district that I represent, the 3rd District 
of North Carolina, and I am like everyone else, I guess. You 
know, the Department of Defense has a tough job whether we are 
at war or peacetime, but especially at wartime, to making sure 
that the troops get what they need to protect themselves. But 
how many--you said you raised roughly $800,000--I am sorry, I 
was in and out----
    Dr. Meaders. Yes.
    Mr. Jones [continuing]. And you had how many requests for 
helmets from those who are serving?
    Dr. Meaders. I am sorry? I am not sure I understood the 
last part of your question, but we manage a waiting list of 
about 10 to 1,200 troops all the time. And when someone like 
Cher steps forward and says here, I am going to help you wipe 
that out, the more kits we send out, the more troops learn 
about them, and the more requests we get. So it is a never-
ending process with the turnover of troops and the spread of 
the word.
    Mr. Jones. Since you started this effort--and again, 
everyone that has helped you, including Cher, God bless you 
all--but have you been contacted by the Department of Defense 
or by the Marine Corps? I mean, has there been some 
communications to you that, you know, Doctor, we understand 
that you are getting X number of requests from the battle 
front? Did you get any inquiries from the Marine Corps, the 
Department of Defense as to this effort and what kind of 
information you were getting from the troops?
    Dr. Meaders. No, sir, we have not had any direct 
communications saying, you know, how many are out there and why 
are they asking. That has not been our focus. Our focus is just 
to put the heads in a safer helmet.
    Mr. Jones. Well, I am not being critical because--God bless 
them all, but I will tell you that I heard about your effort 
on--I am a conservative Republican, but from time to time I 
listen to Air America, and I really think I have gotten to be a 
fan of Randi Rhodes--I don't agree with her on everything, but 
I listen to her quite frequently. But that is when I first 
heard about it.
    I guess we can find out with the next panel, but I would 
think, with such a national effort and a national concern about 
our troops having the proper helmet liner, you would think 
someone from DOD would have made an inquiry, just out of 
curiosity if nothing else.
    I am not being critical, but I again just want to say to 
the chairman and the ranking member that I am pleased that we 
are having this hearing, that we are having an opportunity 
really to say thank you to you and others for your patriotism 
to this great Nation and to help our men and women in uniform 
to be better protected. So I look forward to hearing from the 
next panel.
    I yield back my time, Mr. Chairman.
    Mr. Weldon. I thank the distinguished gentleman.
    Mr. Bartlett is recognized.
    Mr. Bartlett. Thank you very much.
    Mr. Chairman, as I sat here listening to this testimony, I 
asked myself, I wonder how many other places in the world this 
might happen.
    You know, this is really a great country, and I think that 
this happened in our country--and I doubt that it could happen 
anywhere else--because of the enormous respect that we have for 
the rights of the individual. It was the primary reason that 
our Founding Fathers came to this country, and they embedded in 
our Constitution their conviction that the rights of the 
individual is preeminent to all other rights. There is no other 
constitution, no other Bill of Rights in the world that gives 
such rights to the people, and I think that that created a 
climate in which this kind of individual activity can go on.
    I want to commend you, Doctor, for doing this. I don't 
think there is anywhere else in the world where people feel 
such a personal responsibility that would induce somebody like 
Cher to step forward to give not just her money but her 
enormous influence to this.
    So, Mr. Chairman, I want to commend the doctor for doing 
this; and I just believe that the climate that permitted this, 
the rights of the individual--you know, I am a little more 
concerned about the threats to those rights than I am about the 
threats of al Qaeda; and I think when we fight this war we need 
to be very, very careful that we don't permit our zeal to catch 
terrorists to erode these incredible rights of the individual 
that are so important. I don't think we would be sitting here 
today, sir, having this testimony except for our great 
Constitution and our great Bill of Rights that establishes this 
climate where this kind of thing can take place.
    Thank you for this hearing; and thank you, Doctor and Cher, 
for your contribution to what makes America great.
    Dr. Meaders. Thank you, sir. The thanks go to all the 
military people, past, present and future, who are out there 
making it possible for us to do this and the American people 
that gather together to say how can we help.
    Mr. Weldon. I thank the gentleman for his questions.
    I will just acknowledge, Doctor, he is also a Ph.D. He is a 
physiologist from Johns Hopkins University; and Congressman 
Bartlett has 20 patents to his credit, including patents 
dealing with breathing systems. So he is very much concerned 
with issues like the ones that we are talking about and is an 
outstanding expert.
    After consultation with the minority, I now ask unanimous 
consent that Mr. Simmons, as a member of the House Armed 
Services, is going to be authorized to question panel members 
at today's hearing.
    If there are no objections, I will now recognize Mr. 
Simmons for fiveminutes.
    Mr. Simmons. I thank the chairman for holding this terrific 
hearing, and I thank the members for the courtesy to allow me 
to make a few comments and ask a question.
    Like you, doctor, I am a Vietnam veteran; and I say welcome 
home to you. I really appreciate the efforts that you have 
made.
    A couple of years ago, I went to Iraq and I discovered 
that, with the changing combat conditions, our HMMWVs were 
improperly armored. And I took it upon myself, with the 
assistance of members of this committee, including Chairman 
Weldon, to go out into industry to see what was being done to 
provide uparmor for our troops as well as body armor. What I 
discovered was there was a substantial amount of creativity out 
there, but the red tape and the bureaucracy that we encountered 
was very substantial. Clearly, the costs of uparmored HMMWVs 
and even of body armor substantially exceed the costs of the 
inserts for helmets, and so this subcommittee and the full 
committee had to reauthorize and we had to reappropriate 
dollars for that purpose.
    It took about 2 years. But what I learned from that 
experience was that we have the very best fighting men and 
women in the world in our Armed Services. It is an all-
volunteer force, and they are highly motivated.
    But sometimes the bureaucracy and the red tape prevents the 
system from being nimble and flexible. Nimble and flexible. And 
even though private individuals and the members of the free 
market system wish to participate, it is hard to move forward.
    And I would just congratulate you, congratulate Cher and 
all of the other contributors to your effort, because I know 
firsthand from wearing the helmet for over 30 years that it has 
got to be right. It has got to work right. And I also remember 
the lesson my father taught me when he first taught me how to 
shoot back when I was 10- or 12-years old. With a 410 shotgun, 
you don't have to snug it next to your shoulder; but when you 
pick up that 12-gauge, you had better snug it on your shoulder 
or you are going to be badly bruised. And that is exactly what 
you are talking about. If you get pinged with a round of 7.62 
ammunition, it doesn't matter; that helmet is going to work. 
But if you get hit with a blast and you don't have something to 
cushion the blow, you are going to be seriously injured.
    And so I thank you for having the inspiration and your 
supporters for having the patriotism to participate in this. 
And I will tell you, as somebody who is concerned about our 
veterans, who has served for four years on the Veterans' 
Affairs Committee with Chairman Buyer and is on this Armed 
Services Committee, we are going to fix this, and we are going 
to fix it right away. And I thank you for your citizenship and 
your patriotism.
    I yield back, Mr. Chairman.
    Mr. Weldon. I thank the gentleman for his comments and for 
his commitment also to the welfare of our troops.
    After consultation with the minority, I now ask unanimous 
consent that Mr. Wu, a member of the Science Committee, be 
authorized to question the panel members at today's hearing. If 
there are no objections, I will now recognize Mr. Wu for five 
minutes, and welcome him to the committee.
    Mr. Wu. Thank you very much, Mr. Chairman.
    And thank you very much, Dr. Meaders, for all of your good 
work. My questions will primarily be for the next panel.
    There is an active pro-school and peace movement in Oregon. 
You will see bumper stickers all the time that say, wish that, 
when the Pentagon would go into war, they had to hold a bake 
sale to do that. I think that is meant as a joke. I certainly 
don't believe that, and I commend you for your work.
    But the question I will have for the next panel is that we 
have appropriated money, with Mr. Brady's help, with Mr. 
Murtha's help, for the specific helmet liner kits that you are 
talking about, and we have appropriated several million dollars 
a couple years ago, and we asked for $5 million for this year. 
And I am wondering where that money has gone, because it is 
more than an issue of what is happening with taxpayers' money; 
it is a matter of what is happening with soldiers' lives in the 
field. And I am very, very concerned about where the money that 
we have already appropriated has gone and where the money will 
go that we are highly likely to appropriate now. But I commend 
you for your work in the private sector meanwhile. Thank you 
very much.
    I yield back to the Chairman.
    Mr. Weldon. I thank the distinguished gentleman for his 
service.
    And it now gives me a great deal of pleasure to recognize a 
very special person who has served on this committee for a 
number of years and who was one of our best members and most 
committed members to the health, welfare and safety of our 
troops. And I had the unfortunate pleasure of meeting her at a 
very difficult and emotional time for her, but she has really 
risen to become a star in this country and we deeply appreciate 
her involvement here.
    After consultation with minority, I ask that the 
gentlelady, Mrs. Bono, a member of the Energy and Commerce 
Committee, a former member of this committee, be authorized to 
question the panel members at today's hearing. If there are no 
objections, I will now recognize Mrs. Bono.
    Mrs. Bono. Thank you, Mr. Chairman.
    I like to very much thank you for including me in today's 
hearing, and to our witnesses. It is not a question; it is a 
typical congressional point I would like to make, and that is 
to, first of all, thank you for your initiative. So often our 
answers come from the American people, and clearly that is the 
case with what you have done here today.
    I, of course, have to welcome Cher to Washington, D.C. It 
is a pleasure to have you here. A lot has been said about 
Sonny. This is not about Sonny, although I do know that he 
would be extremely proud and support what the good doctor is 
trying to do today. There is nobody in this country that Sonny 
loved more than any man or woman in uniform who devoted 
themselves to protecting our country. So with that, if anybody 
can be on the record for him, I would like to do that.
    But Twentynine Palms is not in my district, Marine Base, 
but it is near and dear to my heart. It is in my sphere of 
influence. I spend a good deal of time up there with our 
Marines and consider it a longstanding commitment that, 
whatever I can do for them, I will continue to do.
    I miss this committee dearly. I am across the hall 
currently in a markup. My heart is still with the committee, 
Mr. Chairman. If I could make it back, I would love to.
    So, again, I would just like to say, we are here. I think 
you are hearing unanimity amongst us, which is kind of rare, 
especially this year. We support what you are trying to do. And 
I hope that the people behind you from the Pentagon hear very 
loudly that we would like to help you in your efforts.
    And again, Cher, thank you for what you have done. I am 
glad you watch C-SPAN. You would think you would have better 
things to do with your life than watch boring old us. But thank 
you very, very much. And, again, I thank the witnesses for 
being here today.
    Mr. Weldon. I thank the gentlelady for her statement and 
for her outstanding contribution to this institution and 
America.
    Dr. Meaders, you did well on your first appearance before 
Congress. You wowed them, I guess is the word I would say. No 
negatives, all positives. And some questions, legitimate ones, 
raised by our good friend, Mr. Buyer, and others. We have the 
same concern, because we want to make sure that what we are 
doing, as you do, is in the end right and proper. But no one 
can question your patriotism and the service of you and your 
family to the country. You are an amazing group of people.
    And with that, I would like to ask you, your wife, your son 
and his wife to stand up, along with Cher, so that we can all 
give you a special round of appreciation as you leave the 
witness table. Please all stand so we can recognize all of you.
    With that, we will convene our second panel of 
distinguished witnesses. If you would all take your places at 
the table, and we will line up the name tags.
    I have already introduced each of the members, so their 
statements have already been submitted for the record and have 
been accepted without objection.
    We will go right down the line. We deeply appreciate you 
all being here but, more importantly, your service to the 
country.
    Since I have already introduced you all and since you are 
not strangers to this community, we welcome you back.
    General Speakes, we will let you lead off, and then with 
General Catto, and then Mr. Smith, and then McCoy. Again, I 
want to thank you all for your service to this country. We 
deeply appreciate it.
    General Speakes.

  STATEMENT OF MAJ. GEN. STEPHEN M. SPEAKES, DIRECTOR, FORCE 
   DEVELOPMENT OFFICE, DEPUTY CHIEF OF STAFF G8, U.S. ARMY, 
  ACCOMPANIED BY SGT. FIRST CLASS LUTZ; MAJ. GEN. WILLIAM D. 
  CATTO, COMMANDING GEN., MARINE CORPS SYSTEMS COMMAND, U.S. 
MARINE CORPS; ROGER M. SMITH, DEPUTY ASSISTANT SECRETARY OF THE 
   NAVY, (LITTORAL AND MINE WARFARE); AND BRIG. GEN. GARY T. 
 MCCOY, DIRECTOR OF LOGISTICS READINESS, DEPUTY CHIEF OF STAFF/
  LOGISTICS, INSTALLATIONS AND MISSION SUPPORT, U.S. AIR FORCE

    General Speakes. Thank you very much.
    Mr. Chairman, Ranking Member Abercrombie, members of the 
subcommittee, thank you for the opportunity to appear in front 
of you today. And thank you, too, for your ceaseless support of 
the American soldier, the American soldier who is at war today 
representing our country.
    The Army's number one concern is force protection. We will 
talk to you about it today. We will talk about our programs. We 
will talk to you frankly about what our challenges are and what 
we have in the road ahead to continue to improve the force 
protection for our soldiers.
    One of the challenges raised today has been whether or not 
our programs are joint. We believe in the Army that we are a 
member of a joint team. We believe that the jointness that we 
are displaying daily is something that you should have 
visibility on. I would point, for example, to our work in 
tactical wheeled vehicles where we and the Marines are embarked 
upon a joint program that has great promise here for the 
future. I would point to our work with the joint IED defeat 
organization in which we are linked with the joint organization 
with the other services, particularly the Marine Corps and the 
Navy, as we work to provide better protection for our soldiers 
as we look at the greatest threat we are facing now, which is 
IEDs.
    So those are but two examples where we see the need, and we 
understand your guidance that we be joint and that we work for 
common solutions as we look at a battleground that is 
increasingly challenging for our men and women who are deployed 
forward. Everywhere we see an enemy that is more complex, who 
puts more challenges in front of us and who ensures that the 
answers of today may be challenged tomorrow by the way the 
battlefield will appear then. So we continue our relentless 
approach to improve force protection to make everything we can 
for our soldiers better so that they may survive and operate 
with total confidence.
    No one solution will fit all circumstances as we look at 
the spectrum of conflict from Afghanistan and Iraq, and then we 
see some of the challenges here at home as we undertake 
homeland defense. We see a very sophisticated array of 
capabilities that we have got to provide soldiers.
    The focus then is to provide commanders the tools so that 
they can make decisions about how they protect their soldiers 
given the operating environment that they see.
    Our pro-force protection approach includes a reliance on 
several time-honored characteristics. First of all, good 
training. Good training is linked by what we call TTP: The 
techniques, tactics and procedures that enable us to be 
effective and successful on a conditioned response in a very, 
very adverse environment.
    And then the other thing I mentioned earlier was the 
ability to give commanders equipping options so that they can 
define the best solution for the environment that they are 
operating in.
    You have invited us here today to talk some specific 
issues, and we will do that. We will talk about body armor. We 
will talk about the Advanced Combat Helmet (ACH), and we will 
talk about our armoring efforts. And I want to go into specific 
detail on that.
    I would like to begin by talking a little bit about 
integrated body armor. To do that, I thought rather than have 
me talk, what I would do is invite, with your permission, sir, 
is a combat veteran who works here in the National Capital 
Region with us, in our Program Soldier, Sergeant First Class 
Lutz. He is here to my left. He is a combat veteran with a year 
in Iraq. He was a part of the Second Infantry, a Striker 
brigade that spent a year in Iraq.
    He, right now, is equipped as our soldiers in the combat 
zone are. And what I will do is start by talking about our body 
armor.
    As you look at the suit of body armor that he has got on, 
what I want to do is detail for you some of the improvements 
that you have been directly responsible for that we now see in 
effect across the soldiers that are deployed.
    First, as you look at his body armor, in his Outer Tactical 
Vest (OTV) front and back, you have what we call a Small Arms 
Protective Insert (SAPI) plate. That SAPI plate now has gone 
through a second iteration of change here in the last two years 
in which we have replaced all the SAPI plates that once started 
this land combat with a new set that is greatly enhanced in 
terms of its protection.
    I would now like to draw your attention to his side and 
shoulders. As you look at the top of his shoulders, what you 
see is what we call the DAP, the Deltoid Axillary Protector. It 
is designed to protect an area that we saw on results of combat 
with something we needed to fix, which is our ability to 
protect the upper shoulder, and so now we have that across all 
of our soldiers.
    The other thing you see underneath his arm is this side 
area, what we call the actual area. And that was another area 
where commanders told us that increasingly they were seeing 
evidence that we had side shots that were having an impact on 
our soldiers, and so what we are now in the process of doing is 
fielding a carrier with the Enhanced Small Arms Protective 
Insert (ESAPI) plate in it which affords our soldiers the 
protection from the side. We have 20,000 sets of that fielded. 
We are on track right now to close out that requirement by 
December of this year.
    So that gives you a quick profile of the kind of 
improvements that we are seeing right now in the basic 
integrated body armor. Now, the liability, obviously, is it is 
31 pounds right now for a medium-weight soldier. That is a lot 
of poundage. The liability is that we don't have any other way 
to go. Right now, the kind of protection you see there is the 
very best that science and technology could afford us.
    We continue to improve and work with everything we can to 
try to find new technologies and new opportunities. Just this 
spring, for example, our acquisition authority put out a new 
request for ideas, and we are in the process of evaluating 
those ideas. And that evaluation should be complete this 
summer. So we don't mean to imply that this evolution of body 
armor is something that we are satisfied with or that will be 
in effect a year or two years from now. We will improve, and we 
will continue to make soldiers safer.
    The other thing I would like to do is address very quickly 
the issue of head gear. What I would like to do is start. 
Sergeant First Class Lutz is wearing the time honored helmet 
that we have worn in the Army since the 1980's, and it is known 
affectionately as the Kevlar helmet or the PASGT. Now, the 
PASGT has some liabilities that we wanted to deal with, and let 
me address them. As you take a look at what Sergeant First 
Class Lutz is wearing right now, you see, fairly typically, he 
has got his night vision equipment on him, and so the night 
vision equipment is something we have added over the course of 
the last 15 or 20 years, and it weighs a couple of pounds. So 
what it has is the impact of pulling the helmet down. And 
because of the way that helmet is suspended, which is the way 
that has essentially been in effect for the last 30 or 40 years 
essentially since Vietnam, his helmet is not really very secure 
or stable on his head. It is particularly noteworthy, for 
example, when he turns and has to engage in an urban 
environment when he is looking up or he is prone where he is 
trying to look out to his front--I would like Sergeant Lutz to 
demonstrate that for you now so you can see the limits of this 
helmet.
    What you see is he doesn't have good vision up above him. 
And then the other thing you see is that, as he starts to move 
toward a more prone position, the extended area of the helmet 
to the front does not facilitate him.
    Sergeant Lutz, no one can see you down there too well, I am 
afraid. The point there is that we have got severe limitations 
right now to the ability of that time-honored helmet--good 
though it was in the 1980's and 1990's--to do its job today in 
today's complicated battlefield.
    So then what we did is we moved to a new helmet, and that 
is the ACH which is drawn from the Special Operations Command. 
In the late 1990's, the Special Operations Command set to work 
to find some improvements to this helmet that we now see as the 
Advanced Combat Helmet, which is what Sergeant Lutz is now 
donning. It has a very different suspension system in it, but 
it also has other improvements. It has improved ballistic 
protection on the actual outside shell of the helmet, and it 
also has a slightly different design. If you notice, it is 
about 8 percent less in terms of total area. That was 
specifically designed to give the soldier the additional 
ability to see to the flank and above him, and also to operate 
now where he has got body armor on with the collar protection, 
which is something that we had to deal with to give soldiers 
freedom to operate. So this helmet now is much more effective 
operating in today's complex battlefield. And the suspension 
system is a pad-based system which we believe is much more 
effective at resisting concussion, which is another area that 
we saw a problem.
    So we began fielding this in 2002, and we have now been 
fielding this to our soldiers across the Army for the last 
several years. We now have 600,000 sets of this helmet out 
across the Army. So we are very grateful for the support that 
it took to make this overall ensemble work, and once again, it 
is something that we will continue to improve. But that gives 
you a quick profile of where we are.
    The next thing I would like to highlight very quickly is 
what we have done with up-armored HMMWVs. Up-armored HMMWVs 
continue to be an area of great concern. They are the primary 
combat platform that soldiers are using in Iraq. We are in the 
process right now to continue to move to a totally level one 
solution. In other words, a factory-installed gold standard 
HMMWV is the coin of the realm that we are striving to attain 
across the Army, and we are on track right now to essentially 
meet all requirements from the combatant commander by spring of 
next year, which will put about 18,000 up-armored HMMWVs 
forward in the combat zone. That is a huge investment that you 
supported us making. We think it has material improvement in 
the overall safety of our soldiers, and that HMMWV is being 
improved daily. And the subject of what we are doing with that 
is obviously very closely held sensitive information that we 
are prepared to go into later on this afternoon in closed 
session.
    The other area that I would like to address is something 
that has been drawn to our attention, which is what are we 
doing right now with the ability to render first aid to 
soldiers. And the specific issue is that we have discovered 
over the last several years that we have significant 
improvements in our ability to essentially stop blood from 
flowing by enhancing its clot-ability. We have two basic 
programs underway that I would like to highlight. And first I 
would like Sergeant Lutz to get up.
    If you take a look at him right now, on his right front, he 
will point out to you the improved first aid kit that we are 
providing to all soldiers. In that improved first aid kit is 
some pretty sophisticated equipment. Among it, some improved 
equipment that enables you to better apply triage to soldiers. 
We are now in the business, for example, of allowing soldiers 
in the combat zone to actually apply tourniquets. We found that 
is very, very important as a lifesaving step when we have 
traumatic injury. And the other thing we have is a bandage now 
that enhances clotting when we have a wound.
    There are two kinds of bandages that are now approved by 
the Office of the Surgeon General. Both of them were Food and 
Drug Administration (FDA) certified. One is HemCon, and one is 
QuikClot. Over the course of the last year, effectively since 
September, we have been fielding those solutions to the field. 
So, at this point, what we have is a fielding solution that 
says we are trying to field one to every soldier forward in the 
combat zone, three to each combat lifesaver and then five to 
combat medics that are forward with our deployed forces.
    At this point, based upon my conversations with our leading 
authorities in Iraq, we have approximately 65,000 individual 
bandages that are forwarded in the combat zone; we have another 
16,000 that are actually in the combat zone being issued. That 
leaves us with about 99,000 that we still have to issue just to 
fix the forces in Iraq. We are also in the process right now of 
conducting detailed work with commanders in Kuwait and 
Afghanistan to ensure that we have the same basic flow provided 
to them as well.
    So, at this point, although our programs are not where we 
want them to be--we don't have it to every soldier as we want--
we understand the commitment. We are making the commitment 
right now that we will get it done. We will report to our 
leadership. General Schoomaker specifically has drawn this as a 
point of attention and concern for him. And obviously, ladies 
and gentlemen, we will report to you. We recognize the 
commitment, and we will make that improvement.
    This is a very quick summary. I wanted to highlight to you 
the importance of this to us and our continuing commitment to 
engage in a dialogue. We thank you for your support. And I 
would also entreat you that your support, which you give 
repeatedly, for stable and continued support of soldiers in the 
area of force protection is absolutely vital to us. Thank you, 
sir, for your attention. We await your questions.
    [The prepared statement of General Speakes can be found in 
the Appendix on page 65.]
    Mr. Weldon. Thank you, General.
    General, the floor is yours.
    General Catto. Thank you, Congressman.
    Congressman and distinguished members of the subcommittee, 
it is my honor to return to you again today to update you on 
the Marine Corps's force protection efforts.
    As I complete my final week as a Marine Corps senior 
acquisition officer, I want to personally thank you, Chairman 
Weldon, for your continued support of our warfighters since we 
began combat operations in Iraq three years ago. Without your 
leadership in how our Marines have been equipped and the strong 
support of this subcommittee to ensure that appropriate 
resources were available to the Marine Corps, I would not be 
able to provide you with the positive report that you will hear 
today in this testimony.
    As I told you, in February, the Marine Corps' overarching 
strategy since the start of Operation Enduring Freedom and 
Operation Iraqi Freedom has been to ensure that 100 percent of 
the Marine Corps' force protection requirements are met with 
the best, most capable systems available in the world today, 
and we have succeeded.
    The Marine Corps is committed to aggressively matching our 
equipment to changing threats. Our ability to rapidly modify 
our vehicle armored systems is a testimony to this commitment. 
For example, all of our HMMWVs that are not being replaced by 
the M1114 have now been armored since December of 2005 with the 
Marine Armor Kit, the best armor kit available.
    We were also able to fulfill the U.S. Marine Corps, Central 
Command (MARCENT) requirement for armoring all of our Medium 
Tactical Vehicle Replacement (MTVRs) in May of this year, which 
is five months ahead of schedule. And by the end of next month, 
July 2006, we will have 100 percent of our operational 
requirements for M1114s complete.
    Providing personal ballistic armor protection to our 
warfighters is critical to ensuring their safety. Our 
individual protection vest system known as the Interceptor Body 
Armor System (IBA) is a modular system that includes the Outer 
Tactical Vest, the Small Arms Protective Inserts for the torso, 
back and sides. Working together, these systems provide the 
best possible levels of personal protection to known and 
anticipated threats. This is why 100 percent of our Marine 
ground forces have had this improved personal protection 
equipment as they rotate into theater.
    In support of the Corps' critical requirement to focus on 
protecting our Marines from the effects of ballistic 
projectiles and fragmentation impacts and penetrations, we have 
replaced our 25-year-old Personal Armor System Ground Troops 
helmet, known as the Kevlar helmet, with the lightweight 
helmet. This helmet provides greater overall coverage of the 
skull, weighs less when compared to the standard Kevlar helmet. 
Coupled with the ease of determining correct fit of the 
suspension sling, the lightweight helmet provides protection 
capabilities against fragmentation threats and 9 millimeter 
bullets for our Marines in combat.
    We are doing absolutely everything we can to ensure the 
safety of our Marines by providing them with the world's best 
and most effective force protection solutions. To my knowledge, 
there are simply no commercial products more capable than the 
equipment being issued to our Marines today. However, we 
continually conduct market research and commission studies to 
identify emerging solutions that offer greater levels of force 
protection. In instances where we find more robust capability, 
we pursue every action available to get our warfighters the 
best equipment as rapidly as possible. And with your continued 
support, we can ensure our Marines remain ready for the current 
fight and any future fights.
    I would be happy to answer questions that either you or any 
other members may have.
    [The prepared statement of General Catto can be found in 
the Appendix on page 72.]
    Mr. Weldon. Thank you, General, for your testimony.
    Is this your first appearance here now, Mr. Smith?
    Mr. Smith. It is the first appearance before the Tactical 
Air and Land Subcommittee.
    Mr. Weldon. Great to have you.
    Mr. Smith worked on this committee for years and is very 
well respected. Now he sits on the other side. But it is good 
to have you here. You are a great American. Thank you.
    Mr. Smith. Thank you, Mr. Chairman and distinguished 
members of the committee. Thank you for having me here today to 
represent the Navy and to discuss with you the individual 
protection equipment that we field through our sailors.
    We have 11,000 Navy officers and sailors deployed into 
CENTCOM or Central Command area of operations today. About 
8,000 of those are individual augmentees to ground units and 
Joint Staff requirements.
    The Navy procures and fields protection equipment for these 
personnel through various procurement agencies in several 
different configurations for a number of different mission 
requirements, which are determined by the combatant commander.
    The mission requirements include Navy expeditionary forces; 
as I discussed, individual augmentees assigned to ground 
forces; and for shipboard antiterrorism missions. Our Navy 
expeditionary forces include our Naval Construction Forces, or 
the Seabees, as well as Naval Coastal Warfare Forces. The 
individual protection equipment that is procured is fielded to 
these deploying units to meet the threat that the units will be 
operating in.
    The Individual Protective Equipment (IPE) for our Naval 
Construction Forces starts with the Personnel Armor System 
Ground Troops, or PASGT, Kevlar composite helmet that was 
earlier discussed and demonstrated, and the standard Outer 
Tactical Vest that was also demonstrated, with either front, 
back and side, Small Arms Protective Insert plates or SAPI 
plates, or enhanced SAPI plates like the Army and the Marine 
Corps. We have also procured 9,533 of the ballistic liner 
padded helmet suspension systems for the PASGT helmet.
    The helmet suspension systems are distributed to the 
deploying Seabees, to the Seabee Readiness Groups located at 
Port Hueneme, California, and Gulfport, Mississippi. Seabees 
are also issued these pads prior to their deployments to 
Operation Iraqi Freedom (OIF) or Operation Enduring Freedom 
(OEF).
    The expeditionary forces that are assigned to the Marine 
Corps, they receive the type of equipment that the Marine Corps 
actually fields, and those would be forces such as dentists, 
doctors, our religious personnel that support the Marine 
expeditionary forces.
    Our Naval Coastal Warfare and Visit Board Search and 
Seizure and Enhanced Maritime Intercept Operations Forces, 
those folks actually get IPE that is a specialized type of cut 
that is unique for their boarding missions. It provides 
additional mobility and also safety for waterborne operations. 
The forces wear a similar cut helmet to the Army combat--Army 
Advanced Combat Helmet. It has a webbed type sling system, and 
the vests are flotation vests that provide ballistic protection 
as well.
    Our acquisition community and our fleet forces right now 
are currently evaluating the requirements for some additional 
types of padding systems in the helmet, and we are working with 
the fleet to work those issues out.
    Our individual augmentees, as I said, there are 8,000 of 
those personnel. The Army actually trains and equips those 
forces before they deploy. If they are assigned to specific 
Army units, they go through Fort Jackson, South Carolina, and 
the Army's Program Executive Officer soldier or PEO soldier 
actually fields their gear to them. We have ``in lieu of'' 
augmentees that support Joint Force staffs and requirements, 
and they actually go through other Army training and doctrine 
command sites, and they are issued the same gear by the Army's 
PEO soldier.
    In closing, I want to thank you again for the opportunity 
to testify, and tell you that the Navy procures and equips its 
forces with the best available IPE. It is tailored to our 
maritime and joint mission requirements and we continue to 
conduct market analysis as required to make the resource 
sponsors in the fleet knowledgeable of the improvements in the 
equipment.
    I stand ready for your questions.
    [The prepared statement of Mr. Smith can be found in the 
Appendix on page 87.]
    Mr. Weldon. Thank you very much.
    General, the floor is yours.
    General McCoy. Chairman Weldon and distinguished members of 
the committee, I want to thank you for the opportunity to 
appear before you to present the status of Air Force protective 
equipment for our expeditionary airmen.
    As the Director of Logistics Readiness, Deputy Chief of 
Staff For Logistics, Installations and Mission Support, it is 
my privilege to report on our force protection efforts, on our 
successes as well as our challenges for the future.
    And on behalf of Secretary Wynne, General Moseley, and the 
men and women of the United States Air Force, thank you for 
your strong support.
    The Air Force continues to provide significant support to 
the Global War on Terror, and we are extremely proud of our 
airmen's contribution to the war efforts. We currently have 
over 30,000 personnel deployed in support of the Global War on 
Terror. And leveraging the ability and the responsiveness 
inherent in our air and space expeditionary forces, our airmen 
have also been actively involved in humanitarian operations at 
home and around the globe and deployed in support of Operation 
Iraqi Freedom, Operation Enduring Freedom and other 
contingencies. And in fact, since 9/11, we have deployed over 
370,000 airmen aggressively fighting the war on terror. We have 
flown over 422,000 combat sorties, moved 3.7 million passengers 
and close to 1.7 million short tons of cargo and delivered 
almost 500 million gallons of fuel. Additionally, the Air 
Mobility Command started committing C-17s in a direct delivery 
move in 2005 to help mitigate convoy operations over land. 
Cargo delivered by air increased by 200 percent from November 
of 2004 to November of 2005. And, moreover, the number of 
passengers delivered by air increased by 14 percent in this 
same time frame.
    Now, this purposeful increase in cargo and personnel 
deliveries amounted to about 18,000 truck equivalents and over 
17,000 bus equivalents of air lift. And this was between 
February of 2005 and January of 2006. Additionally, we are 
using C-130 aircraft flying an average of 140 sorties per day 
supporting cargo in movements in the CENTCOM area of 
responsibility (AOR).
    And as you know, the Air Force has undertaken a greater 
number of various nontraditional roles and missions in Iraqi 
Freedom and in Enduring Freedom. Today there are nearly 5,000 
airmen performing ``in lieu of'' missions with the United 
States Army, including convoy support, detainee operations, 
protective service details, military transition, and 
reconstruction teams who are rebuilding the infrastructure in 
Iraq and Afghanistan.
    We have made enormous strides in obtaining more advanced 
protective gear and equipment for our airmen, specifically in 
the area of body armor, combat helmets, up-armored highly 
mobile multi-wheeled vehicles.
    We take the safety and welfare of our airmen very, very 
seriously. Improved body armor and helmets are critical to 
protecting every airman. We are committed to providing the most 
advanced protective gear and equipment to ensure the safety of 
our number one resource, our airmen.
    Thank you, again, for your strong support to the United 
States Air Force, and I am honored to have this opportunity to 
appear before you today. I offer my written comments for the 
record, and I look forward to our discussions on this important 
subject.
    [The prepared statement of General McCoy can be found in 
the Appendix on page 95.]
    Mr. Weldon. Thank you, General, for your testimony.
    Thank you for your service, and thank each of you for being 
here today.
    Let me start off by asking some questions of somebody who 
just got back from theater.
    Sergeant Lutz, can you grab that microphone there for me? 
Where are you from, Sergeant?
    Sergeant Lutz. Sir, Simi Valley, California.
    Mr. Weldon. Simi Valley, California. It is great to have 
you here. And thank you for your service. When were you first 
deployed to the theater?
    Sergeant Lutz. On November 13, 2003.
    Mr. Weldon. When you were first deployed, did you have the 
old helmet with the old insert or the current helmet, the new 
one?
    Sergeant Lutz. The Advanced Combat Helmet, sir.
    Mr. Weldon. So you never wore the old helmet?
    Sergeant Lutz. I wore the old helmet in training, but not 
to combat, sir.
    Mr. Weldon. Can you tell us in your own opinion the 
difference between the two, since you wore both of them?
    Sergeant Lutz. The PASGT helmet limits your visibility. 
Fighting in combat in Iraq is a three-dimensional battlefield; 
it is not the standard Folder Gap in Germany where the enemy is 
directly in front of you. In Iraq, in a Stryker vehicle, you 
have to constantly look up, down, left and right. The old PASGT 
helmet limits your visibility to look up. The Advanced Combat 
Helmet, granted, it is a little bit less in, protection-wise, 
but it is a lot more comfortable. It allows the soldier to see 
more areas; it allows him to hear better than the old PASGT 
helmet. It allows him to differentiate where the shot is coming 
from, compared to the PASGT helmet, which limits it, and he is 
trying to seek where that enemy fire came from.
    Mr. Weldon. Old helmet that you had that you wore in the 
past, did it have the current insert that we are discussing 
today, or was it an old insert, the type that we have referred 
to?
    Sergeant Lutz. It is the old sling system inserts, sir.
    Mr. Weldon. So comparing the inserts, give us your own 
impression. I mean, as a soldier that was out there on the 
ground, tell us.
    Sergeant Lutz. I would honestly tell you, sir, it is like 
going from a--not to ping any manufacturer. It is like going 
from driving a Yugo to driving a Jaguar.
    Mr. Weldon. That much of a difference?
    Sergeant Lutz. Oh, yes, sir. It is a lot more comfortable. 
It does not weigh anything on your head. It feels a lot more 
comfortable. The old PASGT after a while would start to ping in 
the middle of your forehead and give you headaches and what we 
used to call Kevlar hair. You would rub your hand through your 
hair after a while, and it would just hurt. The Advanced Combat 
Helmet does not do that.
    Mr. Weldon. The liner is part of what we are focusing on 
today as well as the helmet, because we are ordering the new 
helmets. But it is a question of whether or not these 
transitions, these liners--which is what Operation Helmet has 
been doing. Did you feel more comfortable and safer in the new 
liner with the new helmet?
    Sergeant Lutz. Oh, yes, sir. I felt that it was a lot more 
comfortable. I actually know one soldier that was in Bravo 
Company 123 that was shot dead center in the middle of his 
forehead through his glasses when we were in Talafar, and he 
walked away just fine.
    Mr. Weldon. Amazing.
    Was there a problem with heat absorption? That has been one 
of the questions or comments raised about the insert. Was it a 
problem, when you wore the new insert, with heat absorption?
    Sergeant Lutz. We had no problem. Most of our dismounted 
patrols in Iraq are in Mosul because our vehicles were too big 
to go down the streets, and most of our patrols were 
dismounted. They were anywhere from two to three hours long.
    Mr. Weldon. Did you have the problem with the helmet 
sliding down on your forehead with the old insert versus the 
new one? And if so, what was the difference between the two?
    Sergeant Lutz. The old PASGT helmet, regardless of what 
type of Nighe Observation Device (NOD) you have--and I had on 
my helmet, the PVS-14s, which are a little bit lighter. The 
PVS-7s would always pull down the front. If you had on Multiple 
Integrated Laser Engagement System (MILES) gear, which you had 
to have on the back, it would always push it forward, and it 
was just uncomfortable to wear.
    Mr. Weldon. Now, you served in theater. Were you serving in 
an area where there were Marines also?
    Sergeant Lutz. No, sir. I was in Northern Iraq.
    Mr. Weldon. Northern Iraq. So no Marines around. Have you 
seen the Marine helmet?
    Sergeant Lutz. Yes, sir. I have.
    Mr. Weldon. Have you ever worn it?
    Sergeant Lutz. No, sir. I have not.
    Mr. Weldon. Is it a style similar to what you wore when you 
talked about that old helmet that you had?
    Sergeant Lutz. I do believe it is the same sling-style 
system. Yes, sir.
    Mr. Weldon. Okay. We appreciate your service to the 
country, and your anecdotal comments are very helpful, because, 
in the end, what we are about here is helping you have the best 
equipment that money can buy. And, again, we deeply appreciate 
your service to the country.
    Sergeant Lutz. Thank you, sir.
    Mr. Weldon. General, I have got a--let us see. General 
Catto, I have got to get into this unclassified report on the 
comparison of the lightweight helmet sling suspension versus 
the BLSS. And according to the non-ballistic impact testing, 
the test results show that the lightweight helmet, the sling 
suspension, I guess, withstands 157 Gs, versus the model that I 
guess the doctor has put forward that withstands 79 Gs. That is 
a ratio of almost two to one better. Can you explain that, why 
you wouldn't want that for the soldier?
    General Catto. I think, Chairman Weldon, we need to define 
this thing a little bit differently.
    There are three issues that we are concerned about with any 
combat helmet. The first is ballistics and fragmentation, and 
that is either a bullet or a piece of fragmentation that hits 
the helmet, and what kind of protection do you have. And I 
would tell you that I think both the Advanced Combat Helmet and 
the lightweight helmet in terms of just the helmet itself, they 
are made of the same kind of equipment, and they are basically, 
in terms of the material, the same. And the Marine Corps has no 
criticism of the Advanced Combat Helmet. In fact, we buy that 
helmet for our reconnaissance folks and for our people that are 
in the air, naval gunfire and liaison crews, because they are 
guys that do either direct operations that need that kind of 
capability that the sergeant talked about and that do parachute 
ops, so that when they fall or have the kind of blunt force 
trauma that they may have through parachute ops, that is a very 
good helmet. And I think that that needs to be clarified, that 
we do use the helmet and think that the ACH is a good helmet.
    But you have got the ballistic piece that I talked about. 
Then you have the trauma caused by a crash, whether it is in a 
vehicle or being hit with an object other than a fragmentation, 
because the velocity that you get hit with is different. Or you 
have the third piece, blast, which is the result of concussion 
and percussion that Mr. Buyer talked about and the results of 
that. And so all of those things are threats to us.
    Now, from a standpoint for the Marine Corps, the 
lightweight helmet was for us competed for in 2002. And at that 
time, the threat was primarily thought to be ballistic.
    Now, if you look at the liner that we have in the 
lightweight helmet, it is an order magnitude better than the 
old Kevlar helmet in terms of the way it sits on--the fit, the 
fact that it does not move around, and it is a very solid 
helmet.
    The issue that we have is interesting in that I have 
neurosurgeons that say it is important to maintain that 
distance so when you have a ballistic impact on the helmet the 
force is not transmitted to the cranium of the Marine or 
Corpsman wearing that helmet.
    As we have talked through this, I have heard you say to me 
twice that you want facts, and then you have said you want to 
do the right and proper thing. And we agree with that. Mr. 
Abercrombie spoke to facts; Mr. Buyer talked about the medical 
research; Mr. Simmons said it has got to be right. Well, here 
is the issue in my mind. Dr. Meaders, who is a great American, 
talked about studies. I have never had access to the studies 
that he has. If he would forward them to me, I promise you, we 
will give them full measure and look at them from a medical 
standpoint.
    We asked the Aero, the Oregon Aero folks that provide the 
helmet inserts, to give us access to their studies that they 
say the pads are better. They have not provided them to us. So 
what we did in March of this year is, I went to the University 
of Virginia, the Center for Biometric Studies, and commissioned 
a study for them to give me rigorous data on, what are the 
results when this helmet is struck by a ballistic impact? And 
so what I am going to have within the next two months is 
rigorous data from a medical facility that tells me what the 
results on that, the helmet, are.
    If they come back to me and they say that either the liner 
that we have in the lightweight helmet is inadequate and the 
padded system is better, the first thing I will do is recommend 
to the commandant that he move to the upgraded system, and I 
will come to you and ask for the funds to do it.
    The issue, in my mind, is something that all of you in your 
wisdom talked to initially, is, what are the facts. I don't 
know. And we are trying to get to that issue, and when we have 
them, we will make the decision, because my responsibility is 
to ensure that there is no unintended consequences here and 
that we are doing the right things.
    Mr. Weldon. General, I don't want to dominate the time 
here. I want to give my colleagues a chance. But I think you 
are talking about the impact, and we are talking about the 
protection of the head from rollovers and the other instances 
we are seeing, but I have an impact attenuation study on Marine 
Corps helmets dated 1 August 2003 from the Marine Corps team at 
Natick. And in the conclusion and recommendation, it ends up by 
saying the all-foam pad suspension system of the MICH is 
superior for impact protection.
    General Catto. Congressman, I would agree with you. It is 
superior for the crash protection. Remember, I talked a little 
bit about we use mission specific helmets for our recon folks 
and for our anglical folks. The issue I have is I have to 
tailor a helmet for the specific mission. And, to date, we 
think our most significant threat is the ballistic threat, not 
the crash that you might receive in an automobile.
    Now, I have gone to the Combat Trauma Registry and asked 
for them to give me the data on, where are we getting these 
injuries? Are they for the most part from ballistic incidents, 
fragmentation, vehicle accidents?
    When you say it is an IED issue where a Marine or soldier 
is injured, we don't have the data today that can tell us, was 
he hurt by the percussion? Was he hurt by the fact that he 
bounced around within that vehicle because of the concussion? 
Or was he hurt by a fragmentation? So, I mean, it is an issue 
of getting back to, I need more data and I need the specific 
facts before I make that decision.
    Mr. Weldon. General, I thank you. Before I turn to the 
Army, I just would say that what is a little hard to understand 
is that we currently have, my understanding is, 6,000 Marines 
in theater that are using the pads provided by Operation Helmet 
because their choice on the ground in theater was that that 
helmet and that insert provides a better level, in their 
opinion, of protection and comfort. That is hard for us. You 
have to understand that. We will put the money on the table, 
but it is hard for us to recommend--so I turn to the general 
and say, General, you made the decision now for the entire Army 
with this pad system, did you not?
    General Speakes. Yes, sir.
    Mr. Weldon. Now, you just heard what the general said here. 
And I don't want to pit the services against each other, but we 
are in a bind here. We want to give the best. So would you 
comment on why the Army made the decision to go--because you 
have similar types experiences with our soldiers.
    General Speakes. Yes, sir. And as you mentioned, what we 
have is different decisions at different times. And I think 
that is a part of the overall factor of what decision was best 
at a particular time.
    Reviewing the chronology, what we had over the course of 
the late 1990's was Special Operations Command working on the 
Modular Integrated Communications Helmet (MICH), and MICH was 
designed to do a couple things: first, improve protection to 
the shell itself, improve ballistic protection.
    And then the other issue that I think is relevant and Dr. 
Meaders talked about is the concept of sports injury. And the 
concept of sports injury said that, in addition to the basic 
ballistic characteristic of the shell, the other issue that we 
were concerned with was the ability of the suspension system to 
transfer or shield the skull from the shock of a blow, of 
something coming external to the helmet. And so the testing 
that we did indicated that, if you take a look at a typical 
football injury, what you have is somewhere around 40 Gs worth 
of impact, and that the typical contact that the authorities 
that have done the testing for us indicate a typical contact on 
a football field is.
    Then as you take a look at the number of Gs that will cause 
permanent damage or at least injury to the brain, what we are 
looking at is about 95 Gs. We believe right now that our 
helmet, the ACH, comes in and resists the typical impact to the 
tune of about 78 Gs. In other words, it is effective enough 
where it will present an adequate resistance to the typical 
modeled threat that we saw such that you won't have a brain 
injury.
    And so that was the critical issue, and when we compared it 
to our PASGT, the old helmet that we had, the old PASGT was up 
somewhere around 150 Gs. In other words, transferring a lot of 
blunt force trauma to the brain.
    So that was the basic characteristic that we used as we 
made the evaluation back when we decided to evaluate and then 
to adopt that helmet as the Army standard, which happened back 
in 2002. And then we began full fielding in 2002, 2003, 2004. 
So it was a combination then of the ballistic protection, and 
that is a significant improvement because we made substantial 
enhancements to the actual shell, and then the improved pad 
suspension system, which we believe does significant benefits 
in terms of the ability of that helmet system to resist impact 
and shield the brain from those impacts.
    Those are the factors that we understand, sir.
    Mr. Weldon. Gentlemen, the dilemma that we are in, wanting 
to provide you and our troops the best is, you understand we 
have two soldiers that perhaps were on the ground in the same 
theater, fighting the same enemy, with significantly different 
head protection. We are not the ones that can pick or choose, 
and we rely on you to do that. As a request, we have got 8,000 
soldiers, 6,000 Marines using a system voluntarily of inserts 
provided by a private foundation. You have to understand the 
confusion we have here.
    If that is the system that the military at the level of the 
sergeant over here wants, we want them to have it, and we will 
pay for them. And that is our frustration, General.
    General Catto. Mr. Chairman, and you know, we have talked 
to this now for three years, and I am in violent agreement with 
you. The Marine Corps would tell you that we have these 
questions, also, and that is why we commissioned the study in 
March. And if you remember, you go back in history, we talk 
about this very kind of issue with body armor where we had 
questions, commissioned the study, and then that was the 
evolution that brought us to the side SAPI plate.
    What I want to bring everybody back to, there are three 
issues here: There is ballistic protection; there is crash 
protection; and then there is the protection from the results 
of a concussion or percussion. We don't know about the blast 
piece, the concussion, and we need research for that. But all I 
have heard for the ACH from everyone is that it is better 
against the crash, and it is more comfortable.
    I have to have the rigorous data that tells me what is the 
best solution for blast, for concussion, you know, that piece, 
for crash and for ballistic protection. And that is why I say I 
need the help on the research to get to that.
    Mr. Weldon. I understand, General. But you would not sit 
there and say that the Army is not looking at all three of 
those criteria for their helmet, I would think.
    General Catto. Absolutely not. I never have a bad word to 
say about the Army, because we use the same research 
facilities. We ask the same questions. We share the same 
engineers. When I get this study, I will share it with the PEO 
soldier and my Army counterparts. And I am not even sure 
General Speakes is aware of this. The Army has just started a 
study, I am told last month, to look at the same thing, and, 
again, we will share the results of this.
    Mr. Weldon. When will your study be done?
    General Catto. Ours is supposed to be done, I believe, in 
September. We may have preliminary results before that.
    Mr. Weldon. I think we need to get preliminary results 
before that only because, I mean, the Army is already using the 
helmet. They have obviously addressed all three areas that you 
just said were the important element for the Marine Corps. The 
Marines have voted with their mouths, telling Dr. Meaders, 
``Send us the helmets.''
    General Catto. I would go back and say, I need the facts. I 
don't have the facts. I don't have the fact on what is 
happening in the Combat Trauma Registry for what has really 
happened to our guys. And I think that, remember, the Marine 
Corps has not said we cannot use those pads. And that is the 
only piece of gear that we have said can be an optional piece 
for the commanders. Remember when we worked through Dragon 
Skin? So we have the same kind of issue.
    Mr. Weldon. Well, let me say this to you, it will not be a 
question of money.
    General Catto. We know that.
    Mr. Weldon. And you know that. I don't want anyone in 
America to think that we will not provide this equipment. And 
Dr. Meaders has stepped up and done something with his 
foundation. And, to be honest with you, General, there are some 
e-mails I want you to look at that came from some Marine Corps 
personnel that are absolutely outrageous.
    General Catto. I have seen that e-mail. And as you know, in 
every big organization and everyone that is an executive, 
things happen that you would be unhappy with. I did not like 
the tone of that e-mail, and that has been taken care of 
already.
    Mr. Weldon. I appreciate that, and I know Dr. Meaders does 
as well. Look, he has no agenda here.
    General Catto. As I think he would tell you, because we 
didn't get a chance to talk earlier, I thanked Dr. Meaders in 
the anteroom for what he is doing. And this is not invented 
here or we are unhappy with this; we all want the same thing. 
But I reemphasize, I need to have the facts, and that is my 
responsibility, as you know. And I think you can help us with 
that.
    Mr. Weldon. Well, again, we think the facts are there with 
the Army. But I would just say that we want you to do this as 
soon as possible. I mean, this is a top priority.
    General Catto. And we concur with that. That is why we 
started the study.
    Mr. Weldon. The gentleman from New York is recognized.
    Mr. Israel. Thank you very much, Mr. Chairman. And thank 
you for the passion that you bring to this critical issue.
    Mr. Chairman, I want to shift the focus from helmets that 
are designed to protect our forces from injury to the 
coagulants that could save them from bleeding to death after 
the injury.
    General Speakes, I deeply appreciate your candor in 
acknowledging that there have been some difficulties in 
fielding the coagulants. The DOD has said that about 50 percent 
of fatalities are the result of blood loss, and arterial 
coagulants are literally life savers. The Army has had a policy 
that every service member in the theater would have at least 
one coagulant. This is an example, as you know, General, of one 
of two products that are used by the military.
    This is one example. This is an example, General, of what 
happens when things go wrong. This is one of my daily 
newspapers on Long Island. Front page story, June 8: Blood Clot 
Bandages Frontline Shortage: Some troops calling home to ask 
for lifesaving dressings.
    I would like to take you through a brief chronology because 
our time is limited, and then I have some questions. General, 
on June 1, one of my constituents, Doreen Kenney, whose son 
Jacob Fletcher was killed in Iraq, visited my office. And she 
reported that she was receiving e-mails from service members in 
the theater asking her to please send them arterial coagulants 
because they didn't have any. That day my office contacted the 
Army and the Navy and asked about any known shortages. The 
response that date was that no one was aware of any shortages 
but that they would investigate. We remained in contact with 
the Department as they attempted some fact finding. One week 
later, this newspaper story appears.
    We transmitted it on June 8 to the Army and to the Navy. 
Then the very next day, Friday, June 9, the Army signed a $3 
million contract with one coagulant company that had been 
funded by Congress the prior December; Congress funded $3 
million to contract for coagulants. One week after my office 
called, one day after we submitted this news story to them, the 
Army contracted for those coagulants. The same week, the Army 
began negotiating with another company to increase the arterial 
coagulants.
    On Tuesday, June 13--and this is one of the things that I 
have a hard time understanding. Despite the fact that the Army 
signed the contract a few days before, on Tuesday, June 13, we 
received this e-mail from the Army, and I am quoting: Army has 
sent over 200,000 blood-clotting bandages to theater. This 
exceeds the requirements for one bandage per soldier.
    So the Army is telling us on June 13 that all the 
requirements have been fulfilled, and yet the Army only days 
before finally consummated a contract that had been funded by 
the Congress the prior December. In fairness to the Army, the 
very same day somebody got back to us after sending that e-mail 
saying, well, upon further investigation, there may be some 
distribution problems.
    Since we began this inquiry, the Army has in fact been 
responsive to us, and I appreciate that. We have been in 
contact with the Army on a daily basis. And we have been told 
by you today and by others in the Army that 117,000 units have 
been purchased and have been shipped to the theater; that the 
Army is doubling procurement of coagulant bandages from 10,000 
a month to 20,000 a month starting this month; and that every 
service member will have at least one.
    My initial question, General, is, despite the fact that you 
have recognized that this is a problem, what are we going to do 
to make sure that the problem does not occur again? We are 
ramping up production. We are ramping up distribution, but what 
is to stop another distribution problem in theater? What are we 
doing in terms of the roots of this problem? If you would 
answer that, and if I have time, I will have another question 
for you.
    General Speakes. Sir, absolutely. You addressed I think 
very accurately the chronology of our internal investigation to 
see what was happening with this very important issue.
    I think procedurally we have learned some important 
lessons. First of all, we had an early determination that we 
would make this what we call SBE or stay-behind equipment, so 
that what happened, when soldiers exchange roles, the stuff 
that is critical, that is going to remain in the theater, that 
is of limited supply, stays in theater. This wasn't on the 
order that we had put out at the Department directing that it 
be stay-behind equipment. This week, we made the correction. It 
is a part of a review that we are undertaking right now at the 
Department level to make sure we have a current list of the 
material that we are mandating stay in the combat zone because 
it is in short supply. So that is step one, official 
recognition at the Department level that this is critical 
property that must remain in the combat zone.
    The next issue, sir, that I think your constituents very 
accurately identified was, where we headed, we were not sure 
that it was actually in the hands of soldiers. In other words, 
it was out distributed in mass sets, but it was not out where 
soldiers actually needed. We are pretty confident that we have 
very good distribution in the medical command; in other words, 
the combat medic had it, but not all the combat lifesavers, 
who, as you know, are basic soldiers who just get additional 
training, or that the individual soldiers have it. This is now 
a chain of command focus. The chain of command is specifically 
focused on distribution and ensuring it is an element of 
precombat checks, just as you would check for the presence of a 
weapon or ammunition. So I think it is a part of our culture.
    This, as you know, is new technology. It is a new 
capability. For years, I wore a first aid pack around me that 
meant nothing. Now we have got a critical lifesaving capability 
that we in the chain of command have got to be much more 
sensitive to. You have our attention, sir. We understand how 
important it is to soldiers, and we will get it fixed.
    Mr. Israel. General, I appreciate that. My time has 
elapsed. I am just going to put on the record two questions, 
and then I will follow up with you. One is, there was a report 
that as many as 30,000 packets essentially were stuck in a pile 
and may have even been thrown out because they exceeded the 6-
month expiration date. Now, one of the things that I am very 
careful about at home in my medicine chest is opening it up to 
make sure that Tylenol hasn't exceeded the expiration date. How 
is it possible that 30,000 of these packages were just thrown 
out because someone didn't figure out that we have got to use 
these within 6 months? I am going to ask you to look into that; 
we don't have time to get a full answer, but I will contact you 
tomorrow to follow up.
    And second, General, if the Chair will permit, you had said 
that you would be reporting to this committee on the progress 
that you were making in achieving the 5-3-1 goals. Can we 
expect you to report to the committee on a monthly basis, 
General?
    General Speakes. Sir, we would be glad to report on a 
monthly basis.
    Mr. Israel. Thank you.
    I appreciate it and will follow up.
    I thank the Chair.
    Mr. Weldon. I thank the distinguished gentleman for his 
excellent questions, and we will continue to pursue this. I now 
recognize the gentleman from Texas for five minutes.
    Mr. Conaway. Thank you, Mr. Chairman.
    General Catto, I appreciate your passion for fact-based 
decision-making. The study that is being done in Virginia, will 
it include the things that Chairman Buyer talked about in terms 
of his concern for the veterans' perspective?
    General Catto. We are looking primarily at the first 
increment of this for ballistic protection, because we already 
know what happens based on the anecdotal data that we have with 
the ACH in terms of it being slightly better in terms of the 
crash protection. So I think you ask a very important question, 
though. We are going to need funding to get to this correctly, 
and we are going to want whatever kind of help we can get from 
Mr. Buyer and this committee to make sure that we have the 
right information so that we make the right choice.
    Mr. Conaway. Is the padded system--I played football and 
wore both kinds of helmets. Will the study show for the 
ballistic hits the padded system transfer shocks through the 
neck and into the spine that might not otherwise be there?
    General Catto. That is one of the functions of this study. 
We are looking to find out, what are the results of that kind 
of trauma, and how is it transferred?
    Mr. Conaway. So if it shows that the pad systems do not 
degrade the ballistic protection, you would be willing to 
switch to the other?
    General Catto. Absolutely.
    Mr. Conaway. But based on facts and a study from----
    General Catto. Absolutely. And as we said, we don't have a 
preconceived position here. I just want to be sure that, before 
I make that decision or recommend that decision be made, that 
we have the right data to support it.
    Mr. Conaway. General Speakes, does the Army have any kind 
of data like that, the ballistic characteristics of the pad 
system versus a sling system on ballistic hits?
    General Speakes. Sir, let me take that for the record. We 
have studied material, but I don't know for sure that it 
addresses that specific issue.
    Mr. Weldon. Will the gentleman yield on that point? And I 
will yield the gentleman extra time.
    Mr. Conaway. Actually, let me yield back. That was my last 
question.
    Mr. Weldon. General, the point I have to ask, then is, why 
would you then issue this helmet to your recon folks who are in 
a more hostile environment? Why would you do that if you are 
not satisfied that perhaps enough testing has been done.
    General Catto. Well, remember now, I said we issue our 
recon guys both helmets. They have the ACH for certain direct 
action missions or missions where they are doing parachute ops, 
where we are more concerned about the crash issues. And in 
those kinds of missions, they are not intending to be involved 
in firefights, they are intending to do the reconnaissance 
piece, collect intelligence, and then get out of the area. And 
those missions where we think that they may be involved in a 
firefight or the high probability, they are going to wear the 
lightweight helmet, which, by design, is significantly bigger, 
and we think slightly better in terms of the ballistic 
protection. So it is really mission specific.
    Mr. Weldon. You are not saying they carry two helmets 
around.
    General Catto. We said they are issued two, we didn't say 
they carry two.
    Mr. Weldon. The gentleman is finished?
    Mr. Conaway. Yes, the Chairman is recognized.
    Mr. Buyer. I am a little challenged, but I am going to stay 
for the testimony further.
    What was your motivation to do this study in March?
    General Catto. Mr. Buyer, the issue for us--because we have 
had persistent questions about this, and our own guys asking 
for the helmet, we have gone out and said okay, we need to have 
the specific data. Because we have the same kind of questions 
you do----
    Mr. Buyer. All right. Stop. Was there any motivation that 
you would then do a study on blast? Did you ever have a 
motivation to study blast?
    General Catto. We will look at blast in the next increment.
    Mr. Buyer. All right. Let me rephrase the question. When 
you made a decision, you were motivated to do a study on 
ballistics. At that time did you have an equal motivation to 
study blasts?
    General Catto. We did not.
    Mr. Buyer. All right.
    General Catto. Now, can I go back and say remember----
    Mr. Buyer. No.
    General Catto. We don't have the combat trauma information 
to tell us where our injuries are coming from.
    Mr. Buyer. Let me just take a moment, if I may, Mr. 
Chairman. This is going to be really important for us to get 
this out. We have done everything we can, right? You have got 
your side plates, right, protected from the side. You have got 
your front plates, but we do all this, you are going to protect 
the neck, the throat, the groin, we are going to protect all of 
this because we are so concerned about when the blast protects 
here. We have lost limbs, that is what I have to pay for in the 
VA, I have got to take care of this.
    So we have taken care of the torso, we want to take care of 
the limbs, we are going to take care of the groin, but we are 
going to lose the brain. So we have created the four polytrauma 
centers in Richmond, in Palo Alto, Minneapolis and Tampa. Why? 
Because we take your soldiers, sergeant, and we do everything 
we can, not to focus on the extremities, it is to focus on 
brain. And we focus on the brain, because if we can't take care 
of the brain, what good is the rest?
    So the reason I am taking this moment is I want you to 
leave here today with even greater motivation than you had to 
do that ballistic study because--where is the helmet you had? 
Grab your helmet, the one you would be wearing in theater. Now 
put the helmet on. This is the consequence I am dealing with at 
the polytrauma centers, okay.
    So where I talk about where we are going to have to come up 
with this is, you have got the two helmets, you are trying to 
do it based on a mission, you are trying to be as responsive 
because you led those soldiers--I am not going to be the one, 
you have done this.
    But we want to try to figure out how we can come up with 
this helmet. You Marine Corps, you debated the helmet forever. 
World War II, big debate, right? Should we strap it, unstrap it 
when we come off the ship? You guys have had the debates on the 
helmet for years. But we look at this one now and go okay, we 
understand you want as much flexible movement because you are 
in the urban warfare fight and you want to be able to take a 
round, but when the pressure comes in it cannot escape. I don't 
know if this foam is the answer, I really don't, and I welcome 
the research. But where is that blast and force going to go? It 
has got to go somewhere, because right now it is being absorbed 
by the brain.
    And it is remarkable, the expense to the American treasury 
right now to take care of our soldiers. We have even taken 
apart the cranium and stored it in the body to permit the brain 
to rest. We are doing incredible things to save human life.
    So as we do all of this, we are not taking care of the 
brain. So I just want to take a moment here to just reinforce 
to you how important that is. And I agree with all of you, that 
you are doing everything you can to say that we cannot do every 
consequence, we can't, and I know that and I recognize that. 
But I want to work with you, I want to work with the Armed 
Services Committee, and I want to thank the chairman and I want 
to thank you for doing this. And I will help fund whatever we 
can, okay. Thank you.
    Mr. Weldon. I thank the gentleman for his outstanding 
presentation.
    The gentleman is recognized, Mr. Wu.
    Mr. Wu. Thank you, Mr. Chairman. I want to follow up on 
your pointing out that the Army and the Marine Corps had 
similar decisions to make. And it is my understanding that the 
Army and the Marine Corps had the same data about helmet 
safety, or very, very similar data, and one service went one 
way, and thus far, the other service has not chosen to go to 
what Marines in the field seem to be choosing for themselves.
    We have two Major Generals before us. Didn't you all have 
the same data in front of you to make your decision?
    General Speakes. Sir, I don't know that the specific data 
that we had in terms of how it was shared or what the common 
situational awareness of it was when we made the decision back 
in 2002, I will take that for the record.
    General Catto. Mr. Wu, when we looked at this helmet in 
2002, we didn't have a respondent from industry come in with a 
padded solution.
    Mr. Wu. But that was 2002, this is 2006.
    General Catto. Yes, sir. And that is why we are looking at 
an upgrade.
    Mr. Wu. And you have 6 or 7,000 Marines that have selected 
a different helmet. And it is my understanding, or at least 
people have given me information to the effect that folks have 
tried to supply the Marine Corps with information and the 
Marine Corps has been resistant to that. And I would like to 
follow up with you offline about that.
    General Catto. Mr. Wu, I welcome that discussion. If that 
information has been provided to us, I am not aware of it, 
because if it was, I would act on it. As I said, I have asked 
for these studies from Oregon Aero, and I never received them. 
When Dr. Meaders said he had studies, I never----
    Mr. Wu. Well, we have a disputed fact here. And we will try 
to resolve that and we will work with you to do that. My 
understanding is that both Dr. Meaders and others have tried to 
supply you and the university with information and that there 
has been resistance to that.
    I want to focus on a different aspect of this issue, which 
is that this Congress appropriated $2.2 million specifically 
for helmet padding in fiscal year 2005, and I just called the 
Oregon Guard today, and they used $200,000 of that money. Now, 
I really respect the job that Dr. Meaders and others have done 
in raising private money, but we should not be outfitting our 
soldiers through charitable foundations. We appropriated $2.2 
million, $200,000 of that money has been spent by the Oregon 
Guard, and I want to know where the other $2 million are.
    Now, the problem is, I mean, it is not just a matter of 
potential wastage of taxpayer money in that there is $2 million 
that I don't know where that has gone, but it is also the case 
that we have asked for $5 million this year to improve helmet 
liners, and I want to make sure that that money that we approve 
here is actually saving lives in the field.
    Back in fiscal 2005, there was $2.2 million appropriated, 
there was $2.5 million in the House appropriations report, in 
conference, it was cut to $2.2 million. And I don't know how to 
account for that $2 million, and that is why I have stayed here 
that long, even though I am not on that committee because by my 
count, there is a couple million dollars missing. And for some, 
that may be just rounding error, but it is a significant amount 
of money, and it makes a real difference to troops in the 
field.
    General Catto. When you say ``Guard,'' I assume you are 
addressing this to General Speakes?
    Mr. Wu. Well, it was appropriated to the Army Guard, but my 
understanding is, is that that money can be reprogrammed for 
any branch of the service.
    General Catto. I can't speak to that because I am not aware 
of that. If it was appropriated to the Army Guard, that was not 
a Marine Corps issue at the time, and we will have to talk 
offline.
    Mr. Wu. Well, what I need to point out to you is that money 
was appropriated for fiscal 2005, which ended September 30th of 
last year. The Oregon Guard told me that they were not offered 
the money from that appropriation until the last month or two. 
Now, somehow, that money was held up into the wrong fiscal 
year. Now that may seem like a small accounting issue to some, 
but that is 10 months or 12 months in the field with the wrong 
kind of helmet for others, and that is why I am raising this 
money issue and the specific appropriation issue today.
    General Speakes. Sir, this is clearly an issue that the 
Army needs to take a look at. At this point, I don't know the 
specific status of the Oregon Guard and this money. What I can 
assure you is that at this point that we have bought 660,000 of 
the ACH, that we are continuing to buy 30,000 a month.
    Mr. Wu. Well, Major General, what I can tell you about the 
situation with the Oregon Guard, when they needed the helmets, 
they had to borrow them from California and Florida and 
elsewhere, and then when they were asked how much money can you 
use, they used $200,000 because they had borrowed a whole lot 
of helmets, and they said why don't you go to those other guard 
units in California and Florida and elsewhere in the northwest 
and see if they can use some money now because we had to borrow 
those helmets, but we don't have any more than $200,000.
    So I am wondering why there was a significant delay, much 
more than 12 months, and where the missing $2 million is. 
Because we are looking at a $5 million appropriation for fiscal 
year 2007, and I want to make sure that that money goes to be 
used the way that it was intended to save soldiers lives.
    General Speakes. Sir, I understand your concern. We will 
work it. And we owe you an answer, and I understand your 
commitment.
    Mr. Wu. And let me know if you have any problems 
reprogramming that money from one service to another or between 
the Guard and the regular Army or the Marine Corps, and we will 
work on that with you.
    General Speakes. Sir, I appreciate it. We will do that.
    Mr. Wu. Thank you, General.
    Mr. Weldon. I thank the gentleman for his questions.
    General, I don't want to beat a horse to death, General 
Catto, but we have a copy up here of Oregon Arrow's test 
results. Has the Marine Corps asked them for their test 
results?
    General Catto. Sir, yes we have. I have not seen those 
results, we asked for them in September.
    Mr. Weldon. Here they are. And they were comparative 
results. And what we are told here is that these are basically 
the same evaluations with the Marine Corps lightweight helmet, 
and the results are pretty much what we have heard the Army 
state to be the case.
    You know, it is hard for us to be here and to understand 
all the dynamics in question here. What we do know is very 
simple. We do know we want the best protection. General, I will 
have to ask you this question, General Speakes, are all of our 
Guard and Reserve being retrofitted with the inserts that we 
are talking about here?
    General Speakes. Sir, absolutely. Let me talk about it.
    Because of the need for a form fit, what we are doing is 
using the Rapid Fielding Initiative, which, as you know, is a 
program we are using across the Army. And we have essentially 
started with Guard and Reserve deployers and worked our way 
across the deployment system, over 600,000 soldiers fielded to 
date. And we are using the RFI team to go to units and do unit 
set fielding, where we are getting a form fit for every soldier 
in unit, in most cases, before they go into combat, and then we 
are extending that program so we are going across the rest of 
the Army. So our commitment is to field all the way out to 
900,000 so we get everybody taken care of at all composts.
    Mr. Weldon. So that is underway right now?
    General Speakes. Yes, sir, it is.
    Mr. Weldon. General, you can make my day by simply saying 
while you are doing whatever studies you are doing, 6,000 of 
the Marines in theater--which I think are 20-something 
thousand--are using these inserts. I am not talking about the 
helmet test, I am talking about the inserts that are certified 
for use which your special ops recon people are using.
    We will give you the money, you already have the money. 
Let's put Dr. Meaders out of business. Let's buy these inserts 
and make them available for the troops today. We are with you, 
Democrats, Republicans. You have got the money, buy them. Let 
the Marines use them as they are doing, and then if there is a 
study that shows we should improve it another way, then fine.
    To me, if it makes the soldiers who are using these inserts 
feel comfortable, then we ought to do that. You still do the 
study, but let's do that now. And we are not going to take this 
out of the Marine Corps budget, I will go to the wall, as I 
have for the Marines, and I think my colleagues would join with 
me.
    General Catto. Congressman, you have always been a great 
supporter, and your heart is pure and I love that. I will not 
go ahead and authorize a use of those pads unilaterally until I 
have the data that says what the right decision is.
    Now having said that, I am not going to tell them they 
cannot use it, but the issue we have talked about here, it has 
been primarily comfort or a better protection against crash. I 
have got to have the data to make sure that we make the right 
decision before we, as a service, move one way or the other. 
And I am not trying to be a roadblock here.
    Mr. Weldon. Well, respectfully, General, I would say the 
Army is looking at the same three areas that you are looking 
at, they are not just looking at ballistics, they are looking 
at crash, they are looking at everything. They have made a 
decision. And I understand that recon has a different function, 
and you have made that decision for them, but not for the 
others. But the decision, in my opinion, has already been made, 
it has been made on by the Marines on the ground. And this 
wasn't something forced on them, there was no marketing team 
over in the theater saying hey, buy this. This was a group of 
Americans who said we will raise the money to give you, if you 
want it, and 6,000 Marines now have that.
    So I am going to tell you what I am going to do; we are 
either going to raise the money privately, and I am going to 
get behind Dr. Meaders and do it--and if we do that, it is 
going to embarrass the service, we shouldn't have to do that--
or we are going to force it through an appropriation process 
that this Congress has the ability to do. And I don't mean to 
be blunt, but that is how strongly I feel about this based on 
what we have heard and seen today.
    The gentleman and chairman is recognized.
    Mr. Buyer. Thank you very much.
    With regard to the study on the blast, is that something 
that you have available dollars that you could initiative, or 
you are going to have to wait on something from us?
    General Catto. We don't have the dollars available now, no.
    Mr. Buyer. Okay, wow. All right. Well, then, we are going 
to have to put something together. And we are also going to 
look to you for your expertise, that when we do this study, 
that we have to have the right modelling. And it is not just a 
study, but helmet by itself. It is, as the soldier depicted, 
with everything we have put on them.
    And we have such great capacities in our country to do 
wonderful and marvelous things, and to think that we don't have 
the ability to create a helmet that is multifaceted sort of 
would be amazing to me. I just want you to know that is how I 
feel.
    And I am not going to sit here and supplant my judgment for 
you, because you gentlemen have commanded troops in battle, and 
I am not going to question your sincerity because you know what 
it is like to lose a soldier or an airman or Marine, so I am 
not going to get into that with you. But I--man, I feel for 
them. I also was in the desert, and I know what that was like 
in the first Gulf War. And that was a miserable helmet--
Sergeant, you are absolutely right to wear, piercing headaches. 
I actually got a care package, and in that care package were 
those air bubbles, you know, the plastic air bubbles. I cut out 
the air bubbles and put it in my helmet to rest on my head on 
air, and it immediately removed my headaches.
    So soldiers are going to--and mere Marines are going to do 
whatever they can out there; they want to operate, but they 
also want to be able to exist and live. I think you guys know 
that.
    All right. Thank you very much, Mr. Chairman.
    Mr. Weldon. Thank you, Mr. Chairman. And to your friends 
from the Air Force and the Navy, we are not trying to slight 
you. And for the record, we are going to provide a whole series 
of questions on these issues. And without objection, I am going 
to submit the documentation and data provided by the companies 
that staff has inquired of regarding these inserts, and that 
all will be a part of the record, as well as additional 
questions that we would ask of each of our witnesses which we 
would ask you to respond.
    We are going to have a classified brief following this, 
which I want to get underway because of the debate on the 
floor, so I will not take the hearing any longer. But again, 
just want to say that--and especially to my friends in the 
Marine Corps, General, this to me is so obvious that it is--I 
won't say ridiculous--and I understand you want the best 
protection, we want the best protection; but the fact is the 
Army has made a choice, they are using this, it is a 
certifiable system.
    You are allowing the Marines to put this system in place in 
their helmets in theater--or 6000 of them already have it. To 
me it is a no brainer that we buy these inserts from whoever--I 
don't care what contract it is. I understand there are three 
contractors that make this, I don't care who buy it from, none 
of them are from my area of the country, none of them I even 
know whether or not they are, I couldn't even name them except 
Oregon Aero, but it is a question where this has been brought 
to our attention. And if it was just somebody coming in saying 
this, but when you have 6,000 Marines and 2,000 soldiers, and 
all other soldiers using it in theater, it just defies logic 
for us not to know why this is not being done. And to have to 
go out and continue to beg and borrow and raise money from the 
public is not the answer, it is not what the American people 
want to hear.
    Again, I want to thank all of you, and especially our 
civilians who have come in to testify, who have reached out in 
a very positive way as citizens for your effort, Dr. Meaders 
and family. Cher, thank you for being here. And Cher, you have 
impressed me today not because you impress me as a musician and 
as an artist, but you sat through a 2-1/2-hour Congressional 
hearing, and that in itself deserves a round of applause. So 
thank you for being here with us today. This hearing is 
adjourned.
    [Whereupon, at 5:38 p.m., the subcommittee was adjourned.]


      
=======================================================================




                            A P P E N D I X

                             June 15, 2006

=======================================================================

      


      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             June 15, 2006

=======================================================================

      
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    


      
=======================================================================


             QUESTIONS AND ANSWERS SUBMITTED FOR THE RECORD

                             June 15, 2006

=======================================================================

      
                   QUESTIONS SUBMITTED BY MR. WELDON

    Mr. Weldon. General, the point I have to ask, then is, why would 
you then issue this helmet to your recon folks who are in a more 
hostile environment?
    General Speakes. We have provided a copy of the requested helmet 
study to the committee under separate cover.
    Mr. Weldon. What types of combat helmets are issued to sailors, 
Seabees, small boat teams, etc?
    Mr. Smith. Shipboard security forces currently use the standard 
issue Army Personal Armor System, Ground Troops (PASGT) helmet.
    Vessel Boarding Search and Seizure Enhanced Maritime Interdiction 
Operations Level II mission boarding teams use the RBR helmet, which is 
named for the contractor that produces the helmet. It has the same 
measurements as the Army Advanced Combat Helmet.
    Naval Coastal Warfare (NCW) units are currently being equipped with 
the RBR helmet. This is a replacement for the PASGT helmet, which is 
still held by reserve units in the United States. Personnel are issued 
RBR helmets prior to deployment. Additionally, sailors assigned as 
crewmen on NCW patrol craft use the Gentex Tactical Communications 
Helmet (TCH) and during boat missions, crewmen wear the TCH. Crewmen 
are issued the RBR helmet as part of their personal protective 
equipment. When on other missions, they wear the RBR. Non-crewmembers 
wear their individual helmets when embarked on a patrol craft.
    Explosive ordnance Disposal personnel, Riverine Group personnel and 
Navy Individual Augmentees are issued the Modular Integrated 
Communications Helmet/Advanced Combat Helmet.
    Naval Construction Force (Seabees) personnel and Naval 
Expeditionary Logistic Support Group personnel are issued the PASGT 
helmet.
    Mr. Weldon. Does the Navy currently have its own combat helmet 
development program? Is the Navy evaluating the new Army or Marine 
Corps helmet?
    Mr. Smith. The Navy does not develop tactical ballistic helmets for 
ground troops. The Navy develops helmets for specific Navy requirements 
to include maritime aircrews, boat crews, flight deck personnel, etc. 
However, the Navy follows the Marine Corps and Army efforts for all 
ground combat equipment, including helmets.
    Naval Coastal Warfare (NCW) personnel have had the opportunity to 
examine and consider the Advanced Combat Helmet (ACH). Their RBR helmet 
is very close in performance, weight and comfort to the ACH. NCW 
personnel have not evaluated the Marine Corps lightweight helmet.
    Mr. Weldon. How do deploying expeditionary sailors in OIF and OEF 
who are assigned ground force missions such as convoy security 
protection receive their personnel protective equipment?
    Mr. Smith. Naval Construction Force Seabees are issued their 
Personal Protective Equipment (PPE) (combat helmet, body armor, 
ballistic eyewear, gas mask/canisters, etc.) in homeport prior to 
deploying in support of OIF/OEF. Due to limited availability of 
Enhanced Small Arms Protective Inserts (ESAPI), personnel are issued 
standard SAPI plates in homeport. Personnel deploying in support of OIF 
swap out their issued SAPI plates for ESAPI plates (based on 
availability) during Reception, Staging, Onward-movement & Integration. 
Joint Service Lightweight Integrated Suit Technology (JSLIST) suits are 
also issued in Theater; however, there is sufficient stock on hand to 
issue prior to deployment if needed.
    Naval Coastal Warfare (NCW) personnel are issued their PPE in the 
same manner as Seabees with the exception of SAPI. NCW personnel are 
currently issued improved SAPI plates and do not swap them for ESAPI 
plates upon arrival in Theater.
    Riverine Squadrons (RIVRON) have not yet begun to issue PPE to 
RIVRON personnel. PPE issue will take place at the unit prior to 
deployment of personnel. RIVRON personnel will be issued the Tactical 
Maritime Body Armor System manufactured by KDH Defense Systems, Inc. 
which includes floatation/buoyancy capabilities. Riverine Group has 
received funding to purchase ESAPI plates as well as neck, shoulder and 
groin protection and is currently working procurement.
    Explosive Ordnance Disposal (EOD) personnel are issued all PPE 
(including JSLIST suits) prior to deployment. EOD personnel are 
currently issued the Combat Integrated Releasable Armor System with 
ESAPI plates.
    Expeditionary Logistics Support Group (ELSG) personnel are issued 
their PPE as soon as they report aboard the command. Personnel were 
previously issued their JSLIST suits in Theater. However, the process 
is being changed to facilitate issue prior to deployment. All ELSG 
personnel are issued SAPI plates. If they are required to move into the 
MEF AO in support of OIF, their SAPI plates are swapped for ESAPI 
plates. Upon return to Kuwait, the plates are swapped back to ensure 
availability of ESAPIs for follow-on personnel moving north.
    Navy Individual Augmentees (IAs) are issued all PPE (including 
JSLIST suits) prior to beginning their training phase at various Army 
bases throughout the U.S. The Expeditionary Combat Readiness Center is 
working to identify a single site to process and train IAs. If Fort Dix 
is chosen as the single site, Navy will provide funding for the Army to 
continue to train and equip IAs. If Norfolk is chosen, IA personnel 
would be equipped at Norfolk and trained at one of several Army bases.
    Mr. Weldon. Is the Navy pursuing any research and development 
programs with respect to armor technology?
    Mr. Smith. The Office of Naval Research (ONR) is actively involved 
in the development of improved, lightweight vehicle armor systems to 
enhance the survivability of the warfighter. The program supports the 
Department of the Navy (Navy & Marine Corps). These initiatives 
include: the development of hybrid materials for enhanced ballistic 
performance; advanced lightweight electromagnetic armor for protection 
against RPGs, anti-tank missiles, and land mines; and explosive 
resistant coatings.
    While the focus of the Department of the Navy technology efforts is 
on craft protection, based upon Urgent Universal Needs Statement (UUNS) 
from Marine commanders in Operation Iraqi Freedom (OIF) and Operation 
Enduring Freedom (OEF) ONR has been pursuing a number of body armor 
technologies resulting from combat operations in Iraq. Recognizing the 
UUNS, Congress added $3M in FY 2006 funding for Protective Apparel 
Technology Systems. This effort is to develop new light weight personal 
armor materials, cooling technology for personal armor systems, 
advanced instrumented test surrogates to assess personal armor 
performance against blast pressure and ballistic injuries to the 
warfighter leading to new, deliverable personal armor systems. The 
Marine Advanced Combat Helmet System Initiative is also examining 
technologies to incrementally improve the Marine Corps helmet as well 
as to support the design of the next generation helmet as an integrated 
component of an advanced infantry system.
    Mr. Weldon. Do you have any outstanding unfunded body armor 
requirements?
    Mr. Smith. No. There are no unfunded requirements for NECC.
    Mr. Weldon. Do the armor plates used by Naval Coastal Warfare 
squadrons provide the same level of ballistic protection as ESAPI armor 
plates? Are these plates lighter than ESAPI?
    Mr. Smith. Naval Coastal Warfare is procuring and outfitting 
personnel with ISAPI plates which offer Level III+ protection with and 
outer ballistic vest while ESAPI provides level IV protection with 
outer ballistic vest. An analysis is being conducted to determine 
whether or not current requirements meet conditions to upgrade from 
ISAPI plates to ESAPI.
    The ISAPI plates weigh approximately 3/4 lb LESS than ESAPI per 
plate or 1.5 lbs a set.

Note: ISAPI versus ESAPI

ISAPI--is the improved SAPI plate, which added the capability of the 
plate to take 6 to 10 more shots per plate. It will stop up to 3 BZ 
rounds (7.62/39API) armor piercing rounds. These rounds are the most 
commonly used in subject AOR.

ESAPI--is the enhance revision of the ISAPI, which will stop a sniper 
round, M-2 Bullets (7.62/54). This is a round that has been recently 
used in Afghanistan and Iraq by snipers.
    Mr. Weldon. The subcommittee understands that the Army, from the 
onset of its new combat helmet program until 2005, had utilized a sole 
source to provide pad suspension kits. In 2005 the Army decided to 
modify its testing requirements in measuring impact protection going 
from single peak point assessments on each of the 14 impact points to 
taking the average of the required 14 peak point impact tests.
    Why did the Army modify its testing requirements from single points 
to taking the average? Would this not make the requirements less 
stringent?
    General Speakes. The Army has not changed the test procedure for 
measuring impact protection of the Advanced Combat Helmet (ACH). The 
test procedure used is Federal Motor Vehicles Safety Standard 218 
(FMVSS 218) for motorcycle helmets modified for the specific needs for 
impact site, test temperature and subsequent impacts. FMVSS 218 
describes the test fixture, head forms and impact surfaces as well as 
calls out the data collection standard, which is Society of Automotive 
Engineers Standard J211. As part of the test procedure, we look at each 
single peak impact at all 14 data points as well as the average of 
impacts across all 14 points. The ACH is required and capable of 
meeting an average of 150 G's across the helmet, with no single impact 
in excess of 300 G's over temperatures ranging from cold to extreme 
hot.
    Mr. Weldon. How many vendors were used after the test modification? 
How many vendors are currently providing pad suspension kits to the 
Army?
    General Speakes. As mentioned above, the Army has used only one 
test procedure. The helmet pads are manufactured to Advanced Combat 
Helmet (ACH) performance specifications by the National Industries for 
the Blind (NIB) as a mandatory-sourced item through the Javits-Wagner 
O'Day program. NIB can use any qualified vendor's material for the pad 
system, and currently three manufacturers are qualified: Oregon-Aero 
(Scappoose, OR), Brock USA (Boulder, CO) and Team Wendy (Cleveland, 
OH). Additionally, the Army is testing a fourth manufacturer's pad 
material, Skydex (Centennial, CO), to determine if the manufacturer is 
capable of meeting the ACH performance requirements.
    Mr. Weldon. What are the differences in these pad suspension kits?
    General Speakes. While there may be slight differences, all pad 
suspension systems meet ACH performance specifications.
    Mr. Weldon. How do these new pad suspension kits compare to the 
original pad suspension kit used? Was there a field user evaluation?
    General Speakes. All pad suspension systems meet the ACH 
performance requirements. The qualification process for each vendor 
included a user evaluation to ensure proper fit, comfort, and 
stability.
    Mr. Weldon. Please provide the testing criteria, assumptions, 
standards and results of all pad suspension systems that have been used 
in the Army's combat helmet or have been qualified for use in the 
Army's Combat Helmet.
    General Speakes. Due to the operational sensitivity of the material 
requested, we are providing the information under separate cover to the 
committee.
    Mr. Weldon. The Marines indicate the Army's helmet covers 15 
percent less area around the head than the Marine Corps helmet. Have 
you received any feedback from Soldiers indicating that this is a 
problem? Any increased instances of injury? What are some of the 
benefits of the less area coverage?
    General Speakes. The Army recently completed a study comparing the 
ACH and the Marine Corps Lightweight Helmet to the Personal Armor 
System, Ground Troops (PASGT), pronounced ``Pass-get'', helmet which 
has the same area of coverage as the Marine Corps helmet. The study 
reports that the ACH actually provides 8 percent less coverage, not 15 
percent, and was superior to the PASGT helmet based upon the study 
criteria. We are providing the committee with a copy of this report 
under separate cover. Additionally, while the ACH has less area of 
coverage, it provides better situational awareness to the Soldier due 
to such factors as increased field of vision and improved sound 
localization.
    Mr. Weldon. What type of injuries are we seeing in Theater as being 
most prevalent? How do you measure or track these injuries?
    General Speakes. The primary reason for evacuation from Theater 
remains disease and non-battle injuries. For combat wounds, the top 
categories of injuries are to the arms, ear, legs, hands, head and 
face, as a result of explosions, gunshot wounds, rocket-propelled 
grenades, mortars and vehicle bombings. Medical authorities and 
equipment developers receive information on injury type and mechanism 
of injury from several sources. Every Soldier who dies in Theater 
undergoes a full forensic autopsy to determine cause of death and to 
identify opportunities to improve protective equipment and to modify 
tactics, techniques, and procedures. Over the past year, the Army has 
developed a Joint Theater Trauma Registry. The Trauma Registry provides 
a summary of injuries, mechanism of injury, protective equipment worn, 
and medical care provided. Both of these systems have helped improve 
Soldier equipment, change tactics and procedures, and modify medical 
doctrine in response to new threats on the battlefield. Most notably, 
autopsy information led to the fielding of the Deltoid Auxiliary 
Protector, which protects the upper arm and under arm area.
    Mr. Weldon. How are Soldiers issued their combat helmets? Will all 
deploy with the most advanced configuration?
    General Speakes. Soldiers are issued their helmets through the 
Rapid Fielding Initiative fielding teams from Program Executive Office-
Soldier prior to deployment. Soldiers' heads are measured to ensure 
proper sizing, and they are taught the best methods for adjusting the 
pad suspension system in the ACH to ensure a proper fit of the helmet.
    Mr. Weldon. Please tell us some of the feedback you are receiving 
from Theater from troops wearing these current helmets and their 
respective suspension systems?
    General Speakes. Post-Combat Surveys and Soldier Feedback show the 
ACH to be very popular with Soldiers. Soldiers appreciate the reduced 
weight, increased field of view and improved sound localization while 
wearing the helmet, and the improved ability to maneuver and fire from 
the prone position.
    Mr. Weldon. What are the average impact protection levels of each 
of your helmet suspension systems? Please explain what that means in 
terms of protection from blunt trauma to the head.
    General Speakes. Each pad suspension system meets the requirement 
of 150 G's average and no single impact greater than 300 G's. These 
performance requirements are based on the capability of the original 
manufacturer's helmet pad suspension system in the ACH. A force of 300-
400 G's applied to the head is generally considered lethal. A force of 
150 G's applied to the head is generally considered equivalent to a 
concussion.
    Mr. Weldon. To your knowledge has there been a side-by-side test 
comparing the impact protection provided by the Army's helmet with 
original pad suspension kit and that of the Marine Corps helmet using 
the upgraded sling suspension kit using the same metrics? If so what 
were the results?
    General Speakes. Yes. In October 2004, the Vice Chief of Staff of 
the Army directed the U.S. Army Infantry Center (USAIC) to conduct a 
holistic review of requirements and materiel solution performance of 
Soldier ``combat'' head protection. The study team focused primarily on 
the differences between the ACH and the Personal Armor System, Ground 
Troops (PASGT) helmet to recommend the best ground combat helmet to 
wear under all ``Mission, Enemy, Terrain and Weather, Time, Troops 
Available, and Civilians'', or METT-TC, conditions. The USAIC Study 
also evaluated the Marine Corps Lightweight Helmet. We are providing 
the committee with a copy of this report under separate cover.
    Mr. Weldon. Please describe the current condition of the body armor 
industrial base?
    General Speakes. Industry has been responsive to meeting our 
current needs. We know of no impediments in our industrial base that 
would preclude the Services from meeting any new requirements. The Army 
has contracts with:

      --6 Enhanced-Small Arms Protective Insert vendors: Ceradyne 
(Costa Mesa, CA), BAE (Formally CERCOM, Vista, CA), Simula (Phoenix, 
AZ), Armor Works (Tempe, AZ), Protective Materials (Miami Lakes, FL), 
Armacel Armor (Camarillo, CA);
      --1 Outer Tactical Vest vendor: Point Blank Body Armor (Deerfield 
Beach, FL);
      --1 Deltoid and Auxiliary Protector vendor: Point Blank Body 
Armor (Deerfield Beach, FL); and
      --2 Enhanced Side Ballistic Insert vendor: Ceradyne (Costa Mesa, 
CA) and Armor Works (Tempe, AZ).
    Mr. Weldon. Are there any production or material constraints such 
as supply of ceramic tiles?
    General Speakes. No.
    Mr. Weldon. Do you have any outstanding unfunded body armor 
requirements?
    General Speakes. Yes, the Army has a $1.23 billion body armor 
funding requirement in fiscal year 2007.
    Mr. Weldon. Please describe the current efforts being pursued for 
the next advancement in body armor?
    Can you describe some of the solutions you are currently reviewing?
    General Speakes. The Army is focusing on improving Interceptor Body 
Armor (IBA) functionality. The Outer Tactical Vest will be redesigned 
to incorporate: better fighting load carriage distribution; Enhanced 
Side Ballistic Insert integration; and fast access to an injured 
Soldier's front and rear torso area by medical personnel or first 
responders providing battle field first aid.
    Mr. Weldon. How quickly could the ``system'' evaluate and then 
incorporate new body armor developments?
    General Speakes. That would depend on a number of factors. First, 
does it meet our ballistic requirements? Are the factors of form, fit 
and function the same or similar to what we are using now? Can the 
vendor meet production needs quickly or is there a ``ramp up'' period 
required? For example, when we received the Operational Needs Statement 
for Enhanced Side Ballistic Insert in September of 2005, it took only 
four months to complete all testing and move into production and one 
month after that to deliver the first side plates in Theater by January 
2006.
    Since the beginning of the war, the Army has made seven major 
improvements to IBA. We continually query industry for innovative ideas 
to improve IBA, and each alternative must be thoroughly tested to 
insure it meets operational suitability before it is fielded to 
Soldiers.
    The most recent improvement to the IBA ensemble is the Enhanced 
Side Ballistic Insert (ESBI). In September 2005, the Army approved a 
U.S. Central Command Operational Needs Statement for increased body 
armor protection based on the changing threat. The Army immediately 
began developing, testing, and evaluating side plates. The IBA side 
plate procurement started in January 2006 and ramped to 30,000 sets per 
month in June 2006. As of July 14, 2006, the Army has procured over 
95,000 ESBI sets and will meet the Theater requirement of 201,000 sets 
by December 2006. The side plates have the same ballistic 
characteristics as the Enhanced Small Arms Protective Inserts and 
provide increased ballistic protection for the Soldier. The side plate 
is fielded as a complete system: a ballistic plate with a specially 
designed pouch that is affixed to each side of the Outer Tactical Vest.
    Mr. Weldon. What is the status of the Enhanced Side Ballistic 
Insert program? When do you expect completion of the Theater 
requirement?
    General Speakes. Enhanced Side Ballistic Insert is currently in 
production and being fielded to Theater, with an expected completion 
date of December 2006.
    Mr. Weldon. How many vendors are currently producing Enhanced Small 
Arms Protective Inserts and Enhanced Side Ballistic Inserts?
    General Speakes. Currently there are:

      --6 Enhanced-Small Arms Protective Insert vendors: Ceradyne 
(Costa Mesa, CA), BAE (Formally CERCOM, Vista, CA), Simula (Phoenix, 
AZ), Armor Works (Tempe, AZ), Protective Materials (Miami Lakes, FL), 
Armacell (Camarillo, CA); and
      --2 Enhanced Side Ballistic Insert vendor: Ceradyne (Costa Mesa, 
CA) and Armor Works (Tempe, AZ).

    Mr. Weldon. On average how many body annoy solutions would you say 
you have tested and evaluated?
    General Speakes. The Army's Project Manager for Soldier Equipment 
has evaluated over 30 submissions from industry over the last 40 months 
resulting in seven improvements to the Interceptor Body Armor system.
    Mr. Weldon. What is the policy for armored vehicles leaving Forward 
Operating Bases (FOBs)? Are only vehicles with Level II and above armor 
allowed to go outside the wire?
    General Speakes. Current policy, found in FRAGO no. 77, dated 
December 20, 2005, is that effective January 1, 2006, any vehicle 
departing the safety of the FOB must have at least Level II armor. 
Multi National Corps-Iraq issued a policy memorandum on June 25, 2006, 
in which General George W. Casey, commanding general, Multinational 
Forces-Iraq, highly encouraged his subordinate commanders to issue 
their own policy to restrict combat patrols to Up-Armored High Mobility 
Multi-purpose Wheeled Vehicles (UAH-M1114/1151), Armored Security 
Vehicles (ASV-M1117) and Marine Armor Kits (M1043 and M1045) kitted 
vehicles when their units reach 85 percent fill of their required 
vehicles. In essence, this means that only Level I vehicles may depart 
the FOB for units with 85 percent vehicle issue. This tightening of the 
vehicle policy is possible because the Army has continued to improve 
the survivability of the vehicle platforms to ensure that vehicles 
operating off the FOB have the highest possible level of protection.
    Mr. Weldon. What's the status of armoring turrets and hatches on 
vehicles? We've seen a lot of ``Level III'' armor solutions that look 
pretty effective (e.g. ``pope glass''). What's the ``system'' doing to 
help this effort or provide even better armor?
    There were several turret armor designs under test and evaluation 
several months ago, what happened to these?
    General Speakes. The Army continues to make progress on the 
Enhanced Gunner Protection Kit (GPK). To provide an enhanced capability 
quickly, the Project Manager (PM) delivered 1,000 commercially 
available Transparent Armor Gunshields that allow gunners to remain 
behind armor while still having frontal visibility. As of July 6, 2006, 
975 initial kits are installed. As additional 800 Marine Corps 
Transparent Armor Gunshields were purchased, and the 125 kits have been 
shipped. Production is projected for completion in August 2006.
    Currently, the Army is updating the Government-owned Technical Data 
Package a successful user evaluation on the Objective GPK, was 
concluded in late June 2006. Production is scheduled to start in 
September 2006.
    Mr. Weldon. Is the armor for the M1151/M1152 Up-Armored High 
Mobility Multi-purpose Wheeled Vehicles (HMMWV) the same as the M1114 
Up-Armor HMMWV? (My understanding is that the answer is YES).
    How quickly can the ``system'' evaluate and then incorporate new 
vehicle armor advancements?
    General Speakes. Although some material compositions for the armor 
package differ, the M1151, M1152, and M1165 provide an equivalent or 
greater protection as the M1114. The significant advantage to the 
M1151, M1152, and M1165 is the flexibility to add or remove the armor 
based on mission, threat and technology. The M1114 armor cannot be 
removed. It normally takes 2-3 months to design, test and start 
production; a more complex design can take at least 6 months.
    Mr. Weldon. Are there any definite trends or indications that 
troops are having more vehicle accidents (e.g. roll-overs) because they 
have not had training on the armored vehicles before deploying?
    If we are seeing more instances of accidents and roll-overs, would 
you agree that combat helmets should provide the best level of blunt 
impact protection?
    General Speakes. The U.S. Army Combat Readiness Center has not 
identified training deficiency as a primary factor in roll-over 
accidents. However, operational reports from Theater reveal that most 
accidents occur during the first few months after a unit has arrived in 
Theater, indicating that driver proficiency is an accident factor. The 
Army has provided limited Add-on Armor (AoA) kits and M1114 Level I 
HMMWVs as training sets for use in training Soldiers in the driving of 
armored Tactical Wheeled Vehicles (TWVs) prior to deployment. Further, 
drivers are provided additional training concerning driving armored 
TWVs in Kuwait before ``crossing the berm'' into Iraq and on the HMMWV 
Egress Assistance Trainer (HEAT), which simulates a vehicle roll-over. 
In regard to your second question, the combat helmet together with the 
seat restraint are the primary items of equipment which provide 
protection to Soldiers in roll-over accidents.
    Mr. Weldon. Question. What is the status of the industrial base in 
meeting new vehicle armor requirements?
    General Speakes. Industry has been responsive to meeting our 
current needs. We know of no impediments in our industrial base that 
would preclude the Services from meeting any new armor requirements. In 
fact, the competitive bidding process in our Future Tactical Truck 
System Advanced Concept Technology Demonstration brought new companies 
such as Lockheed Martin into the process, as well as our traditional 
industrial partners.
    Mr. Weldon. When does the Army expect to reach maximum monthly 
level of production for the Up-Armored HMMWV (UAH)?
    General Speakes. The Army has been working closely with the UAH 
manufacturer to ensure the production meets the requirements of all UAH 
customers. In May 2006, the manufacturers produced 988 vehicles and 
1,074 vehicles in June, and the forecast is for over 900 vehicles to be 
delivered during each month of July and August 2006.
    Mr. Weldon. I understand there is a HMMWV Egress Assistance Trainer 
(HEAT) operating in Theater that helps simulate a vehicle roll-over and 
helps the gunner train in exiting the vehicle in such a situation.
    Are you aware of this program? And what's the status of this 
program? Are there plans to provide more trainers here in the 
continental United States?
    General Speakes. Yes, there are currently three HEAT trainers being 
used in Theater, and Theater requires a total of 31 trainers. The 
Aberdeen Test and Evaluation Center (ATEC) was in Theater in late June 
2006 to perform operational testing, and safety certification is 
pending. No formal test report has been issued but indications are that 
there are no significant problems with the trainer. There is also an 
effort ongoing to address the number of HEAT trainers needed for 
training in the U.S. The Army Training Support Center is leading the 
team with all concerned Army organizations to evaluate this issue. The 
team expects to publish a final report showing the requirement for 
trainers for the continental U.S. forces by July 31, 2006.
    Mr. Weldon. Can you briefly describe your long term vehicle 
armoring strategy/initiative?
    General Speakes. The Long Term Armoring Strategy (LTAS) is the 
objective armor solution for the Armor Tactical Wheeled Vehicle fleet. 
The objective requirement for LTAS is to develop an armored solution 
for vehicles that can be tailored for the mission. This is accomplished 
by means of ``A'' and ``B'' Kits. The ``A'' Kit is installed on the 
vehicle as a part of the vehicle manufacturing process. This kit is 
integrated into the vehicle and cannot be removed. It provides the 
superstructure onto which the ``B'' Kit armor can be installed and 
armor for hard-to-armor portions of the vehicle, such as the 
undercarriage. The ``B'' kit is the removable armor panels which give 
the vehicle the same level of protection as the M1114 UAH.
    Mr. Weldon. What steps are being taken to fix the current gaps in 
fielding from the US to Afghanistan and Iraq? What is the timeline for 
full fielding of hemostatic agents?
    General Speakes. The delivery schedule for the HemCon chitosan 
dressings was accelerated to field 120,000 dressings from June 2006 to 
November 2006. Additionally, 159,000 substitute hemostatic dressings 
(QuikClot) will be delivered between June and August 2006 to augment 
the HemCon bandage fielding. The HemCon chitosan dressings will be 
fielded according to the Army policy of 5:3:1 (5 per medic, 3 per 
combat lifesaver, and 1 per Soldier) by November 2006.
    Mr. Weldon. Is it true that even though the Army's policy since 
last year is for every Soldier to have a hemostatic agent, only medics 
and combat lifesavers have them today?
    General Speakes. Although it is true that currently not every 
Soldier has a HemCon chitosan dressing, it is untrue to state that only 
medics and combat lifesavers have them. Army policy establishes a 
requirement that every Combat Medic carry 5 bandages, every Combat 
Lifesaver carry 3 bandages, and every Soldier carry 1 bandage. Until 
fielding was complete, Army policy allowed every Combat Medic to be 
issued 3 bandages until sufficient stocks were available to meet the 
5:3:1 fielding plan. The current Theater requirement is calculated at 
181,000 HemCon chitosan dressings. Over 110,000 are presently in the 
hands of Soldiers, medics, and combat lifesavers within the Central 
Command Area of Operations which includes both Iraq and Afghanistan. In 
addition, the 159,000 QuikClot dressings in Theater provide a 
hemostatic product for trained medical personnel to use until the 
HemCon chitosan dressings are available for all Soldiers, medics, and 
combat lifesavers.
    Mr. Weldon. Once hemostatic agents are shipped to Theater, how are 
they accounted for? Who tracks their unit fielding? Who tracks usage 
and replacement requirements? How are these communicated up the chain 
of command, starting at the lowest levels?
    General Speakes. Hemostatic agents are ``pushed'' to the units in 
Theater to facilitate initial fielding. The fielding plan is developed 
by the respective Theater commands, with the priority going to units 
and Soldiers in direct combat. The hemostatic bandage is classified as 
an expendable item because it is consumed in use. As such, it is not 
formally tracked or accounted for as other pieces of equipment are. 
Bandages are requisitioned through routine medical supply channels when 
replacement items are required. In June 2006, the Headquarters 
Department of the Army issued a clarifying message on the subject of 
Theater Provided Equipment. The hemostatic bandage was identified as an 
item to remain in the Theater which requires units to leave these items 
behind in Theater. This requirement has been emphasized with senior 
supply officers and deputy commanders in Theater. Theater is developing 
a policy whereby all hemostatic bandages will be turned in to forward 
medical supply points prior to a unit rotating out. All bandages will 
then be inspected for serviceability and expiration dates before being 
reissued to a new unit. Any shortfalls due to usage, damage or 
expiration will be replaced through medical supply systems.
    Mr. Weldon. Is there a long-term fielding plan, and if so, will 
arterial coagulants be included in the annual budget request in coming 
years?
    General Speakes. Yes. The current fielding plan calls for 
distribution of 120,000 more dressings between June 2006 and November 
2006 to meet the initial HemCon fielding requirement. After the initial 
requirement is met in November 2006, Theater and the Army will decide 
whether a separate sustainment contract or prime vendor distribution 
based on unit requirements and stockage inventory will meet Army 
sustainment requirements. This sustainment requirement will part of the 
annual Operation and Maintenance budget request.
    Other potential arterial coagulants are in various stages of 
development, testing and Federal Drug Administration approval, both 
internally and externally to the Department of Defense.
    Mr. Weldon. The Army recently executed a contract for $2.25 million 
of QuikClot. What is the fielding plan for that procurement, including 
timeline?
    General Speakes. A quantity of 155,000 QuikClot bandages are 
scheduled for delivery to the Theater between June and August 2006. To 
date, 80,000 of these bandages have arrived in Theater. These bandages 
will be fielded through routine medical supply channels until the 
HemCon bandage requirement is fully met.
    Mr. Weldon. What types of helmets are issued to expeditionary 
airmen?
    General McCoy. The Air Force currently issues the Personnel Armor 
System for Ground Troops (PASGT) to most expeditionary Airmen. There 
are specialties (security forces, EOD, some civil engineers) that 
satisfy their unique requirements with the Advanced Combat Helmet 
(ACH). In addition, our Airmen performing in-lieu-of (ILO) duties with 
the US Army are issued the ACH as well. The Air Force recently made the 
decision to ensure our Airmen in the AOR are outfitted with the best 
protective equipment available and resourced 23,200 ACHs and 5,000 
ballistic liner suspension system (padded) inserts for the existing 
PASGT helmets. The ACHs and new padded helmet inserts are earmarked for 
issue to our troops in Iraq, Afghanistan and throughout the USCENTCOM 
AOR.
    Mr. Weldon. Has the Air Force considered adopting either the Army 
or Marine Corps helmets as its primary helmet for expeditionary airmen 
performing ground force missions?
    General McCoy. Yes, certain disciplines have already transitioned 
to the Advanced Combat Helmet (ACH) to satisfy unique mission 
requirements. Moreover, the Air Force has purchased 23,200 ACHs and 
5,000 ballistic liner suspension systems for existing PASGT helmets for 
expeditionary Airmen in the USCENTCOM AOR. Future plans are under 
consideration and may require a replacement/fielding initiative to our 
current standard helmet. At that time, consideration will be given to 
fielding the Advanced Combat Helmet (ACH) and/or Lightweight Combat 
Helmet (LWCH) across the broader Air Force.
    Mr. Weldon. What type of helmet is issued to Air Force Security 
personnel?
    General McCoy. Air Force Security Forces issues the Advanced Combat 
Helmet (ACH) to its personnel with the Marine Corps GENTEX Light Weight 
Helmet as a suitable substitute. Our security forces personnel adopted 
the ACH as a standard issue helmet, because the new helmet offered 
better ballistic protection, improved field of vision and increased 
maneuverability and firing capability. Additionally, based on studies 
conducted by the US Army, the ACH reduced blunt force trauma due to the 
improved suspension system the new helmet provided.
    Mr. Weldon. How do deployed expeditionary airmen in OIF and OEF who 
are assigned ground force missions such as convoy security receive 
their personnel protection equipment?
    General McCoy. Personnel assigned to ground force convoy missions 
are required to deploy with Individual Protective Equipment (IPE) 
issued to them from home station. Personnel tasked to deploy with in-
lieu-of (ILO) forces, performing ground force missions, are provided 
their full compliment of IPE by the Army, which includes the Advanced 
Combat Helmet (ACH). Organizations deploying Battlefield Airmen, such 
as the Tactical Air Control Party (TACP), outfit their personnel with 
IPE specifically tailored to their unique combat mission.
    Mr. Weldon. Is the Air Force pursuing any research and development 
programs with respect to armor technology?
    General McCoy. Yes. The Air Force is engaged in researching armor 
technologies for vehicles and individual protective equipment. The Air 
Force Protection Battlelab and the Air Force Research Laboratory are 
the primary sources for force protection R&D initiatives. Our armor 
technology modernization efforts are funded through research 
development funding (3600 funding).
    Mr. Weldon. Do you have any outstanding unfunded body armor 
requirements?
    General McCoy. Yes. GWOT requests were submitted for $106M to 
support shortfalls for the Air Reserve Components and to replace 
equipment for warfighters in-theater due to the increasing 
technological advances of protective equipment (e.g. armor piercing 
protection & shoulder protection).
    The Air Force has purchased 23,200 Advanced Combat Helmets (ACHs) 
and 5,000 ballistic liners for inclusion in the PASGT helmet. 
Additionally, pending a decision to adopt the ACH or variant helmet as 
the standard for combat airmen, the Air Force would require $53M in 
additional funding to support the initiative.
    Mr. Weldon. What type of injuries are we seeing in theater as being 
most prevalent? How do you measure or track these injuries?
    General Catto. The Naval Health Research Center (NHRC) Technical 
Report 06-01, ``HEAD, FACE AND NECK INJURIES DURING OPERATION IRAQI 
FREEDOM II: RESULTS FROM THE U.S. NAVY-MARINE CORPS COMBAT TRAUMA 
REQISTRY'' revealed that 75% of all casualties in the study had head, 
face or neck injuries resulting from battle injuries (Improvised 
Explosive Devices (IEDs), mortars, gunshot wounds) and 25% had non-
battle injuries (motor vehicle crashes, blunt traumas, recreation/
training). The NHRC's Combat Trauma Registry records, tracks, and 
monitors all injuries for service personnel treated in the Marine 
Corps' area of operations in Iraq.
    Mr. Weldon. How are Marines issued their combat helmets? Will all 
deploy with the most advanced configuration?
    General Catto. Active Duty Marines are issued their combat helmet 
from their supporting Consolidated Issue Facility (CIF). Reserve 
Marines draw their Lightweight Helmet (LWH) from either the Critical 
Asset Rapid Distribution Facility (which supports all Marine Forces 
Reserve (MARFORRES) units) or the gaining Marine Expeditionary Force 
(MEF). The LWH is an individual issue item. There are sufficient 
numbers of the LWH available to provide all deploying Marines with the 
most advanced version of the Marine Corps' combat helmet.
    Mr. Weldon. Please tell us some of the feedback you are receiving 
from theater from troops wearing these current helmets and their 
respective suspension systems?
    General Catto. We are getting mixed feedback from Marines in 
theater concerning their experience with either the sling or pad 
suspension system. The issue of which system provides the best level of 
comfort is an individual choice. Recent comments submitted by a Chief 
Warrant Officer in theater (fourth deployment since 2003) reflect our 
concern about the human factors aspects of the pad suspension system. 
His unit is 50/50 split on which suspension system is preferred. 
Negative comments about the pad suspension system (Oregon Aero) used by 
his Marines include heat retention, lack of air circulation, pads 
getting filthy very quickly (particularly if you sweat a lot), ripping 
easily, and fine sand causing velcro tabs and pads to fall out.
    Mr. Weldon. What were some of the reasons for the Marine Corps's 
decision in choosing an upgraded sling suspension kit versus going with 
a pad suspension kit? Please briefly discuss the analysis of 
alternatives used for the combat helmet program?
    General Catto. The Lightweight Helmet (LWH) Operational 
Requirements Document (ORD) required the procurement of a reduced 
weight Personal Armor System Ground Troops (PASGT) helmet. At the time 
of development and contract award, no pad suspension system was 
offered. Later, during a limited user evaluation in Nov. 2002, Marines 
indicated a preference for the LWH sling suspension system over the pad 
suspension system that was tested. Because there was no compelling 
reason to slow the LWH procurement and adopt a pad suspension system, 
the Marine Corps chose to remain with the sling suspension system.
    Mr. Weldon. What are the average impact protection levels of the 
sling suspension system? Please explain what that means in terms of 
protection from blunt trauma to the head?
    General Catto. The Lightweight Helmet (LWH) Operational 
Requirements Document (ORD) allows for a 150G (Objective) and 200G 
(threshold) peak acceleration at an 8 feet per second fall rate, which 
is roughly equivalent to an individual hitting their head on the ground 
after tripping and falling. The LWH with sling suspension easily meets 
these requirements with an average impact load of 157G at 8 feet per 
sec.
    Mr. Weldon. What are the impact protection test requirements of the 
Lightweight Combat Helmet? At what velocity are impact protection tests 
performed? For example 8 feet per second, 10 feet per second? The Army 
uses 10 feet per second as its standard. Why do the Marines use 8 feet 
per second? Does this make the impact protection requirement easier to 
achieve?
    General Catto. The Lightweight Helmet (LWH) Operational 
Requirements Document (ORD) allows for a 150G (Objective) and 200G 
(threshold) peak acceleration at an 8 foot per second fall rate, which 
is roughly equivalent to an individual hitting their head on the ground 
after tripping and falling. The 8 feet per second impact testing 
requirement was the approximate injury threshold for the Personal Armor 
System Ground Troops (PASGT) helmet which the LWH replaced. This has 
been the standard measure for the last two generations of Marine Combat 
helmets.
    Mr. Weldon. To your knowledge has there been a side-by-side test 
comparing the impact protection provided by the Army's helmet with 
original pad suspension kit and that of the Marine Corps helmet using 
the upgraded sling suspension kit using the same metrics? If so what 
were the results?
    General Catto. The Office of the Secretary of Defense is currently 
conducting side-by-side impact testing of the Army's Advanced Combat 
Helmet (ACH) and the US Marine Corps Lightweight Helmet (LWH) at the US 
Army Aeronautical Research Lab. This is the first deliberate, 
simultaneous comparative testing of these two systems by one lab. A 
comparison of separate ballistic impact testing previously conducted 
for these two systems shows a slight advantage for the LWH helmet over 
the ACH.
    Mr. Weldon. Has the Marine Corps conducted side-by-side ballistic 
testing of the Marine Corps Lightweight Helmet with a sling suspension 
and one with a pad suspension? If so, what were the results?
    General Catto. Recent ballistic testing funded by the Marine Corps 
at the University of Virginia showed that there is no statistical 
difference between the performances of sling or pad suspension systems 
in protecting the head from ballistic impacts. Preliminary results 
suggest the suspension system plays no role in mitigating force 
transmission to the skull.
    Mr. Weldon. Are you aware of any test data that demonstrates 
ballistic performance degradation of combat helmets that utilize pad 
suspension kits?
    General Catto. The Office of the Secretary of Defense is sponsoring 
a study at the US Army Aeronautical Research Lab to determine pad 
degradation at cold, ambient and hot temperatures. Currently, we are 
not aware of any other work that has been done to measure the potential 
degradation of ballistic performance in pad systems.
    Mr. Weldon. Please briefly describe the ongoing experiment being 
conducted at University of Virginia (UVA) regarding the testing, 
modeling, and simulation of combat helmets and suspensions systems? 
What is this study trying to accomplish? Will this study also measure 
non-ballistic impacts such as riding in a pitching combat vehicle or 
other forms of blunt trauma to the head?
    General Catto. The initial Marine Corps funded study at the 
University of Virginia sought to determine if a difference exists in 
the ballistic response of the helmet suspensions in terms of force 
transmitted to the head. Preliminary results suggest the suspension 
system plays no role in mitigating force transmission to the skull. 
This study has been expanded to examine the effects of non-ballistic.
    Mr. Weldon. The acting medical officer of the Marine Corps in April 
2005 recommended additional assessment of the ability of the BLSS to 
protect against ballistic threats and recommended that the manufacturer 
of the BLSS conduct this testing and forward the data to Marine Corps 
Systems Command for further review. Did you or anyone at Systems 
Command ask the BLSS manufacturer to conduct these tests? Do you know 
if the BLSS manufacturer conducted these tests? Was the data reported 
back to Marine Corps Systems Command?
    General Catto. Oregon Aero, the BLSS manufacturer, has not provided 
any ballistic impact test results to the Marine Corps Systems Command. 
A formal request was submitted to Oregon Aero by MajGen W.D. Catto on 
19 June 2006 asking for any test data concerning protection from 
ballistic and blast events. To date, no test data has been provided nor 
is there any indication that this testing has been conducted by the 
manufacturer.
    Mr. Weldon. Please describe the current condition of the body armor 
industrial base? Are there any production or material constraints such 
as supply of ceramic tiles?
    General Catto. The body armor industrial base is robust, with a 
number of large and small businesses capable of providing ceramic 
plates. There are no material constraints at this time.
    Mr. Weldon. Do you have any outstanding unfunded body armor 
requirements?
    General Catto. No. All body armor requirements have adequate 
funding.
    Mr. Weldon. Please describe the current efforts being pursued for 
the next advancement in body armor? Can you describe some of the 
solutions you are currently reviewing? How quickly could the ``system'' 
evaluate and then incorporate new body armor developments?
    General Catto. We are working with a variety of laboratories 
(Defense Advanced Research Projects Agency, Office of Naval Research, 
Army Research Laboratory, Naval Research Laboratory, Marine Corps War 
fighting Laboratory), utilizing the Small Business Innovation Research 
(SBIR) program, and with industry in three principal areas--significant 
weight reduction, increased area of protection, and protection against 
known ballistic threats. We do not foresee any technological advances 
in the next 3-5 years that will provide us with a significant reduction 
in the weight of ceramic plates or the ability to increase the area of 
ballistic plate coverage without adversely impacting flexibility and 
mobility. We do anticipate that ceramic plates capable of stopping 
emerging threat munitions, such as M993 and M995, will be available in 
the next 6-12 months.
    Mr. Weldon. What is the status of the enhanced side ballistic 
insert program? When do you expect completion of the theater 
requirement? How many vendors are currently producing ESAPI and ESBIs?
    General Catto. By the end of Apr. 2006, we fielded 28,882 sets of 
Side SAPI to the theater. We have 19,618 sets of Side SAPI on order to 
support deploying Marine Expeditionary Units. Delivery began in July 
2006 and fielding should be completed by Jan. 2007. Additionally, we 
have a competitive procurement on the street to procure 90,699 sets of 
Side SAPI. Contract award will occur in Sep. 2006 and we anticipate 
fielding will be completed within 12 months. Currently, the Marine 
Corps has three vendors under contract who supply Enhanced Small Arms 
Protective Insert (ESAPI) and Enhanced Side Ballistic Inserts (ESBI) 
plates.
    Mr. Weldon. On average how many body armor solutions would you say 
you have tested and evaluated?
    General Catto. Dozens of potential solutions have been evaluated.
    Mr. Weldon. What is the Marine Corps acquisition strategy for 
procuring enhanced side ballistic inserts and front and back ESAPI 
plates?
    General Catto. Side Small Arms Protective Inserts (SAPI)--Our 
initial procurement of 28,882 sets of Side SAPI plates were to the 
Interceptor Small Arms Protective Insert (I-SAPI) specification. The 
remaining 2 procurements required Enhanced Small Arms Protective Insert 
(E-SAPI) plates. We will exchange the Side SAPI plates currently in 
theater with E-SAPI specification plates. Front and Back E-SAPI--
Fielding continues. To date, we have fielded nearly 42,000 sets of E-
SAPI plates. We anticipate reaching our Acquisition Objective during 
4th Qtr, FY07.
    Mr. Weldon. What is the policy for armored vehicles leaving Forward 
Operating Bases (FOBs)? Are only vehicles with Level II and above armor 
allowed to go outside the wire?
    General Catto. Yes, only vehicles with Level II and above armor are 
allowed to go outside the wire.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. ISRAEL
    Mr. Israel. 1. What steps are being taken to fix the current gaps 
in fielding from the US to Afghanistan and Iraq? What is the timeline 
for full fielding of hemostatic agents?
    2. Is it true that even though the Army's policy since last year is 
for every soldier to have a hemostatic agent, only medics and combat 
lifesavers have them today?
    3. Once hemostatic agents are shipped to theater, how are they 
accounted for? Who tracks their unit fielding? Who tracks usage and 
replacement requirements? How are these requirements communicated up 
the chain of command, starting at the lowest levels?
    4. Is there a long-term fielding plan, and if so, will arterial 
coagulants be included in the annual budget request in coming years?
    5. The Army recently executed a contract for $2.25 million of 
QuikClot. What is the fielding plan for that procurement, including 
timeline?
    General Speakes. [The information was not available at the time of 
printing.]
    Mr. Israel. Why did the Marines conduct an independent study on 
Hemostatic agents and what were the results?
    General Catto. The Marine Corps conducted a study with the Office 
of Naval Research to determine the efficacy of hemostatic agents and to 
select the best product. In 2000 when the research began, hemostatic 
agent technology was very immature and independent studies to validate 
manufacturer's claims were prudent.
    The result showed that QuikClot had a 0% mortality rate and that 
HemCon had a 28.6% mortality rate.
    Mr. Israel. Why did the Marines purchase and field Quikclot?
    General Catto. The Marine Corps purchased and fielded QuikClot to 
combat deaths on the battlefield from war fighters bleeding to death. 
The leading cause of preventable battlefield death since the Civil War 
has been blood loss. The Marine Corps was improving the Individual 
First Aid Kit (IFAK) and wanted to put a hemostatic dressing in the 
kits. As shown in the previous answer, research proved that QuikClot 
was the best choice for the war fighter. QuikClot was then fielded in 
every IFAK.
    Mr. Israel. Can you describe the fielding plan for Quikclot?
    General Catto. QuikClot was fielded as a component of the 
Individual First Aid Kit (IFAK). The initial IFAKs went out to the 
fleet in early FY 2002 and the complete acquisition objective (AO) has 
been met as of FY06. The product was also fielded in response to Urgent 
Universal Need Statements for Vehicle Medical Kits and Combat Life 
Saver bags.
    Mr. Israel. Does every Marine in theater (Afghanistan and Iraq) 
have Quikclot, and if so, how were they trained in the use of the 
Hemostatic agent?
    General Catto. The complete Acquisition Objective (AO) has been met 
and every Marine in the operating forces has been fielded an Individual 
First Aid Kit (IFAK) which contains QuikClot in it. The product has 
also been fielded in Vehicle Medical Kits and Combat Life Saver kits. 
The training of the product is conducted at the unit level by unit 
medical personnel utilizing training IFAKS prior to deployment. The use 
of the product is also taught at Marine Corps Recruit Depots as part of 
the boot camp training package.
    Mr. Israel. Does the USMC intend to purchase and utilize HemCon and 
if not, why?
    General Catto. The Marine Corps does not have any plans to purchase 
HemCon. The product fails to work in field applications 66% percent of 
the time and the product costs $98.00 per bandage. QuikClot works 100% 
of the time with 0% mortality and costs $9.80 per package.

                                  <all>

</pre></body></html>
